<html>
<title> - THE HUMAN RIGHTS SITUATION IN TIBET AND THE INTERNATIONAL RESPONSE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  THE HUMAN RIGHTS SITUATION IN TIBET
                     AND THE INTERNATIONAL RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2020

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


              Available at www.cecc.gov or www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-840 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



House                                     Senate

JAMES P. McGOVERN, Massachusetts,    MARCO RUBIO, Florida, Cochair
Chair                                JAMES LANKFORD, Oklahoma
CHRIS SMITH, New Jersey              TOM COTTON, Arkansas
MARCY KAPTUR, Ohio                   STEVE DAINES, Montana
THOMAS SUOZZI, New York              TODD YOUNG, Indiana
TOM MALINOWSKI, New Jersey           DIANNE FEINSTEIN, California
VICKY HARTZLER, Missouri             JEFF MERKLEY, Oregon
BEN McADAMS, Utah                    GARY PETERS, Michigan
BRIAN MAST, Florida                  ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                    Jonathan Stivers, Staff Director

                  Peter Mattis, Deputy Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. James P. McGovern, a U.S. 
  Representative from Massachusetts and Chair, Congressional-
  Executive Commission on China..................................     1
Zeekgyab Rinpoche, Abbot of Tashi Lhunpo Monastery...............     4
Mecacci, Matteo, President, International Campaign for Tibet and 
  former member of the Italian Parliament........................     6
Statement of Hon. Marco Rubio, a U.S. Senator from Florida and 
  Cochair, Congressional-Executive Commission on China...........     8
Dorjee, Tenzin, activist and writer, and Senior Researcher at 
  Tibet Action Institute.........................................     8
Richardson, Sophie, China Director, Human Rights Watch...........    10
Statement of Hon. Chris Smith, a U.S. Representative from New 
  Jersey.........................................................    12

                                Appendix
                          Prepared Statements

Zeekgyab Rinpoche................................................    30
Mecacci, Matteo..................................................    31
Dorjee, Tenzin...................................................    33
Richardson, Sophie...............................................    34

McGovern, Hon. James P...........................................    39

                       Submissions for the Record


CECC Truth in Testimony Disclosure Statement.....................    42
Witness Biographies..............................................    43

 
   THE HUMAN RIGHTS SITUATION IN TIBET AND THE INTERNATIONAL RESPONSE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2020

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened virtually, pursuant to notice, at 
10:08 a.m., Representative James P. McGovern, Chair, presiding.
    Also present virtually: Senators Rubio, King, Cotton, 
Daines, and Peters and Representatives Smith, McAdams, 
Hartzler, Levin, and Suozzi.

      OPENING STATEMENT OF HON. JAMES P. McGOVERN, A U.S. 
  REPRESENTATIVE FROM MASSACHUSETTS AND CHAIR, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chair McGovern. Good morning, and welcome to today's 
hearing of the Congressional-Executive Commission on China, on 
the Human Rights Situation in Tibet and the International 
Response.
    While the world is rightly focused on the crimes against 
humanity and perhaps genocide in Xinjiang, and the dismantling 
of Hong Kong's autonomy and rule of law, the human rights 
situation in Tibet continues to deteriorate. More than 60 years 
have passed since the Dalai Lama escaped into exile, and 
Tibetans in China are still struggling to exercise their basic 
rights--to speak and teach their language, protect their 
culture, control their land and water, travel within and 
outside their country, and practice their religion as they 
choose.
    Religious freedom continues to be severely curtailed, 
including through mandatory political education for religious 
leaders and arrests of Tibetans who display or even possess a 
photo of the Dalai Lama. Several buildings or religious centers 
of Tibetan Buddhist learning have been demolished. Religious 
practitioners have been expelled from Larung Gar and Yarchen 
Gar, which used to be the home of thousands of Tibetan Buddhist 
monks and nuns. It has now been 25 years since the 11th Panchen 
Lama was abducted and forcibly disappeared, making him one of 
the world's longest-detained prisoners of conscience. We 
continue to call for his immediate and unconditional release.
    This year, ethnic unity regulations were passed that 
mandate acceptance and promotion of government ethnic and 
religious policy. There has also been a Chinese government-led 
effort-- misleadingly referred to as bilingual education--
instituted in minority areas throughout China, that mandates 
that schools and teachers shift to Mandarin as the language of 
instruction. This violation of linguistic rights in Tibet is 
also being implemented in Xinjiang and Inner Mongolia, where 
new limits on Mongolian language instruction recently sparked a 
large-scale demonstration. In the name of poverty alleviation 
and environmental protection, Tibetan herders and nomads are 
under pressure to give up their traditional land rights and way 
of life, displaced according to the whims of the government and 
business.
    Make no mistake about it, Chinese authorities are engaged 
in a systematic effort to eliminate the distinct religious, 
linguistic, and cultural identity of the Tibetan people. They 
are in clear violation of China's international obligation to 
protect human rights and religious freedom and to respect the 
rights of indigenous peoples and tribal and ethnic minorities. 
Access to Tibet remains tightly controlled, with journalists 
reporting that it is difficult to visit Tibet--it is as 
difficult to visit Tibet as it is North Korea. As a result, 
human rights abuses and environmental degradation are concealed 
from the world.
    In 2018, Congress passed the Reciprocal Access to Tibet 
Act. And I was heartened to finally see the Trump 
Administration implement this legislation by restricting visas 
for Chinese officials involved in blocking access to Tibet 
areas. However, a special coordinator for Tibetan issues has 
still not been appointed, as mandated by law. Every other U.S. 
President over the last two decades has made this appointment. 
Not doing so sends a signal that the human rights of the 
Tibetan people are not a priority for the President or the U.S. 
Government.
    I am very concerned about recent reports that systematic 
and large-scale training and transfer of Tibetan rural surplus 
laborers to work in factories is taking place. This program 
seems eerily similar to Uyghur forced labor abuses that have 
been well documented by this Commission. I am also concerned 
about the targeting of the Tibetan diaspora, including such 
tactics as allegedly engaging a New York police officer to 
gather intelligence for the Chinese government about the New 
York Tibetan community.
    I look forward to hearing more about these issues from our 
witnesses today. In a white paper last year, the Chinese 
government restated its claim that it has the sole authority to 
control the next reincarnation of the Dalai Lama, in clear 
violation of the religious freedom of the Tibetan Buddhist 
community. In light of new threats to interfere in the 
reincarnation process and the increased human rights 
violations, U.S. policy toward Tibet needs to be updated, and 
it needs to be strengthened. In January 2020, the House of 
Representatives overwhelmingly passed the Tibetan Policy and 
Support Act by a vote of 392 to 22. At a time when Democrats 
and Republicans can't even agree on what to have for lunch, 
this bipartisanship shows overwhelming support for human rights 
in Tibet and for the Tibetan people.
    This legislation will establish a U.S. policy that the 
succession or reincarnation of Tibetan Buddhist leaders--
including a future 15th Dalai Lama--is an exclusively religious 
matter that should be decided solely by the Tibetan Buddhist 
community; state that Chinese officials who interfere in the 
succession or reincarnation process will be subject to targeted 
sanctions, including those contained in the Global Magnitsky 
Act; strengthen the role of the State Department and the 
special coordinator for Tibetan issues by including a mandate 
to work multilaterally; mandate that no new Chinese consulate 
should be established in the United States until a U.S. 
consulate is established in Tibet; direct the State Department 
to begin multinational efforts to protect the environment and 
water resources of the Tibetan Plateau; and support democratic 
government in the Tibetan exile community.
    It is long past time for the Senate to act on this 
legislation. Frankly, I'm not sure why it has not moved 
forward. I hope that my Senate colleagues and all those who 
support human rights in Tibet will contact the leadership in 
the Senate and ask them to pass this bipartisan legislation as 
soon as possible. Our hearing today will examine the current 
situation facing Tibetans, both inside China and globally, 
explore restrictions on linguistic and religious rights, and 
identify diplomatic and multilateral options to address 
restrictions on access and the process of religious succession.
    [The prepared statement of Chair McGovern appears in the 
Appendix.]
    And I can't see him--I'm not sure whether Senator Rubio is 
on the line or not. I don't see him yet. But we'll go to him. 
Let me--before we go to Senator Rubio, let me ask whether any 
of my other colleagues would like to say anything? And I see 
Senator King. I don't know whether you'd like to make a few 
opening remarks.
    Senator King. I really don't have any additional comments, 
Mr. Chairman. You covered the field well and I'm anxious to 
hear from our witnesses today. Thank you.
    Chair McGovern. Thank you very much. Is Representative 
Chris Smith here?
    Staff. Mr. Smith is in the Africa Subcommittee--in the 
Africa hearing. But he has remarks that he would like to give 
when he returns in a few minutes.
    Chair McGovern. OK. All right. I see Mr. Suozzi.
    Representative Suozzi. Thank you, Mr. Chairman. I'll wait 
until the witnesses have a chance to speak and then make a 
statement and ask some questions at that time.
    Chair McGovern. Senator Cotton or Senator Daines, 
Representative Hartzler?
    Representative Hartzler. No, I'll withhold my comments till 
later. You've covered a lot already, Mr. Chairman. Thank you.
    Chair McGovern. OK. Thank you. And Andy Levin?
    Representative Levin. If you will wait, Mr. Chairman. I'm 
looking forward to asking questions.
    Chair McGovern. And I see Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. I'll also defer 
until after the witnesses have a chance to make their 
presentation.
    Chair McGovern. All right. So everybody's deferring. All 
right. So I'll now go to the panel. I'm proud to introduce our 
esteemed panel of expert witnesses this morning. The panel 
includes Zeekgyab Rinpoche, who was recognized by the Dalai 
Lama as a reincarnated lama. His lineage has close connections 
to Tashi Lhunpo Monastery and the Panchen Lama. Rinpoche has 
completed over three decades of Buddhist studies at key centers 
of learning in India. He was appointed Abbot of the Tashi 
Lhunpo Monastery in South India by the Dalai Lama.
    Matteo Mecacci serves as the president at the International 
Campaign for Tibet. He previously served in the Italian 
Parliament as a member of the Italian Chamber of Deputies, 
during which time he served as chairperson of the Italian 
parliamentary group for Tibet. He also served as an elected 
official of the OSCE Parliamentary Assembly.
    Tenzin Dorjee is a Tibetan activist, writer, and senior 
researcher and strategist at Tibet Action Institute, graduated 
from the Tibetan Refugee School System in India, and immigrated 
to the United States under the Tibetan Resettlement Project's 
family reunification program. He's the former director of 
Students for a Free Tibet.
    And last, but certainly not least, Sophie Richardson. She's 
the China Director at Human Rights Watch. Dr. Richardson is the 
author of numerous articles on domestic Chinese political 
reform, democratization, and human rights in Cambodia, China, 
Indonesia, Hong Kong, the Philippines, and Vietnam. She's 
testified before the European Parliament and the United States 
Senate and House of Representatives on many occasions.
    I want to thank you for all being here today, and we look 
forward to hearing your testimony. And we will begin with 
Zeekgyab Rinpoche. And just make sure you unmute, OK?

                STATEMENT OF ZEEKGYAB RINPOCHE,
                ABBOT OF TASHI LHUNPO MONASTERY

    [Note: Zeekgyab Rinpoche's remarks were made through an 
interpreter.]
    Zeekgyab Rinpoche. Chairman McGovern, Chairman Rubio, 
respected members of the Commission, thank you for organizing 
this very important hearing and for the opportunity to speak 
today. I am the abbot of Tashi Lhunpo Monastery. My monastery 
was founded by the first Dalai Lama, and for 500 years has 
served as the seat of the Panchen Lama, one of the most 
important figures in Tibetan Buddhism, with spiritual authority 
second only to the Dalai Lama.
    The Panchen Lama is of immense significance to my 
monastery, to the 6 million Tibetans in Tibet, and to the 
millions of Buddhists worldwide. In 1995, His Holiness the 
Dalai Lama recognized a 6-year-old boy, Gedhun Choekyi Nyima, 
as the 11th Panchen Lama. Three days later, the Chinese 
government abducted this boy, making him the world's youngest 
prisoner at the time. Twenty-five years have passed since the 
Panchen Lama's abduction. Despite persistent appeals from 
concerned governments, UN bodies, rights groups, and 
sympathetic individuals across the world, the Chinese 
government to this day refuses to provide verifiable 
information about the Panchen Lama's whereabouts, his well-
being, or evidence to prove that he is even alive today.
    Instead, China has propped up another boy as the Panchen 
Lama, a false reincarnation whom we Tibetan Buddhists do not 
accept. China's glaring lack of accountability over the 
kidnapping of such an important religious figure, and a child 
at that, is an outrageous and unprincipled act. This violates 
the very basic right that Tibetan Buddhists should have to 
choose our own spiritual leaders. This raises the question, why 
did the Chinese government kidnap a 6-year-old boy, the genuine 
reincarnate, and prop up a false Panchen Lama? In Tibetan 
history, the unique relationship of the Dalai Lama and the 
Panchen Lama is well known. The popular saying is: As the sun 
and the moon are in the sky, so are the Dalai Lama and the 
Panchen Lama on Earth.
    Since the 17th century, the Panchen Lamas and the Dalai 
Lamas have played key roles in recognizing and teaching each 
other's reincarnations. In the past century, the 9th Panchen 
Lama helped identify His Holiness the 14th Dalai Lama, who in 
turn recognized the 10th and 11th Panchen Lamas. Given this 
traditional practice, the Chinese government will surely use 
its false Panchen Lama to interfere in the selection of the 
next Dalai Lama and other high reincarnates. Therefore, all of 
us Tibetan Buddhists the world over, and supporters of 
religious freedom, should be deeply concerned. It is clear that 
the Chinese policy over Tibet is a deliberate attempt to remove 
from the face of the Earth our racial and cultural identity.
    This is clearly seen in the way the Chinese government 
interferes and intervenes in the functioning of the monastic 
education system, by imposing restrictions on our monks and 
nuns. Even in our schools, we see this malign design to wipe 
out our unique identity in the form of restructuring the 
curriculum and banning the learning of the Tibetan language. In 
short, there is a continuous and systematic destruction of our 
culture, religion, language, and environment in Tibet. 
Therefore, to safeguard the rights of Tibetan Buddhists 
worldwide, to choose our spiritual leaders without interference 
by the Chinese government, and to secure the release of the 
Panchen Lama, I respectfully offer three suggestions to this 
Commission.
    First, on the crucial issue of the selection of the next 
Dalai Lama, the entire matter should be left to the total 
discretion and vision of the Dalai Lama--without any 
interference and imposition from the CCP. Please do devise a 
coordinated strategy in unity with allies and present a strong 
collective stance to challenge the CCP's authoritarian regime's 
ominous moves on this matter.
    Second, please work toward establishing similar contact 
networks with the many Tibetan parliamentarians, support 
groups, and caucuses that exist around the world. These contact 
groups could facilitate the sharing of model resolutions and 
legislation, such as the Tibet Policy and Support Act, among 
its members.
    Third, I call upon sympathetic governments, NGOs, and Tibet 
support groups to investigate the whereabouts of the Panchen 
Lama, and those abducted with him, so that we have clear and 
accurate information on their whereabouts, including current 
photos of the Panchen Lama, his family members, and Jhadrel 
Rinpoche. We simply cannot keep urging transparency from China, 
which has shown no intention of transparency on this matter and 
other human rights issues. Lastly, I request the U.S. Senate to 
approve the Tibet Policy and Support Act. If passed, this 
legislation will bring much-needed hope to the Tibetan people 
as they struggle to survive during this dark period of 
persecution and illegal occupation by China.
    Thank you for the honor of testifying before you. And thank 
you for your ongoing support of human rights and religious 
freedom of the Tibetan people.
    [The prepared statement of Zeekgyab Rinpoche appears in the 
Appendix.]
    Chair McGovern. Thank you very, very much.
    We'll now turn to Matteo Mecacci.

STATEMENT OF MATTEO MECACCI, PRESIDENT, INTERNATIONAL CAMPAIGN 
     FOR TIBET AND FORMER MEMBER OF THE ITALIAN PARLIAMENT

    Mr. Mecacci. Chairman McGovern, Chairman Rubio, members of 
the Commission, thank you for inviting me to testify today. 
Tomorrow is the 71st anniversary of the establishment of the 
People's Republic of China. And while every nation is entitled 
to celebrate its founding, no government should lose sight of 
the fact that its first and main responsibility is to serve and 
protect all its citizens by respecting their fundamental 
rights. Since the People's Republic of China invaded Tibet 
almost 70 years ago, it has kept very tight control on all 
aspects of Tibetan life. The deterioration of human rights in 
Tibet today continues to be very serious. Over the last four 
years, Freedom House has consistently ranked Tibet as the 
second-least-free region of the world--behind only Syria.
    Tibetans can be persecuted for their beliefs. And to ensure 
government surveillance on Tibetan monks and nuns, police 
stations have been opened inside or next to monasteries. 
Tibetans can be arrested simply for owning photographs of the 
Dalai Lama or celebrating his birthday, or for watching videos 
of his teachings. China is also trying to control the Tibetan 
reincarnation system, as we've just heard from Zeekgyab 
Rinpoche. After abducting the Panchen Lama and his family when 
he was just six years old in 1995, the Chinese Communist Party 
now plans to select the next Dalai Lama--an absurd claim that 
the international community needs to challenge decisively. And 
there are encouraging signs from European governments and the 
United Nations, in addition to the State Department.
    At the end of August, Xi Jinping presided over the Seventh 
Tibet Work Forum held in Beijing. The meeting's proceedings 
indicate that the Chinese leadership will continue its policy 
of control and assimilation in Tibet. Worryingly, Xi Jinping 
called for the patriotic reeducation of the younger generation 
of Tibetans, and asked officials to--(inaudible)--and I quote, 
``strengthen ideological and political education in schools, 
put the spirit of patriotism throughout the entire process of 
school education at all levels and types, and plant the seeds 
of loving China in the depths of the hearts of every 
teenager.''
    In a report released on September 22nd, scholar Adrian Zenz 
documented the large-scale program established in the Tibet 
Autonomous Region that in the first seven months of 2020 pushed 
more than half a million rural Tibetans off their land and into 
military-style training centers. These are staggering numbers. 
After their first training, at least 50,000 of them were sent 
to other areas of Tibet and China and pushed into low-wage 
factory and construction work. The report highlights the 
Chinese authorities' attempts to eliminate Tibetans' 
traditional lifestyle, their unique identity, and their way of 
thinking. It also highlights disturbing similarities with the 
system of coercion, vocational training, and labor transfer 
established in Xinjiang over the last few years.
    In the wake of this new report, more than 60 
parliamentarians from 16 countries from the Inter-Parliamentary 
Alliance on China have issued a statement demanding urgent 
action to confront such policies. As we discuss how the United 
States and the international community should shape and adjust 
its Tibet policy, it must be noted that under the leadership of 
Chairmen McGovern and Rubio, at the end of 2018 the U.S. 
Congress passed the Reciprocal Access to Tibet Act--the first 
legislation to apply the principle of reciprocity in U.S.-China 
relations. As documented by the State Department in its latest 
report, the Chinese government continues to keep Tibet under 
lockdown. And as a result of this legislation, last July the 
State Department, for the first time, banned from the United 
States the Chinese officials who are responsible for blocking 
Americans' access to Tibet.
    This call for reciprocal access to Tibet has also been 
endorsed by MPs around the world in an op-ed published last 
June by over 50 European MPs, following a report by my 
organization. There is a growing awareness in European capitals 
and in Asia of the challenge posed by the authoritarian model 
of development promoted by Beijing. Calling for reciprocity, 
not only on economic and financial issues, but also for civil 
liberties and human rights, is an effective way to challenge 
China's narrative. But it should be done in a strategic, well-
coordinated, and international fashion--which is still not the 
case.
    Last January the House of Representatives, as mentioned by 
Chairman McGovern, passed the Tibetan Policy and Support Act. 
This is now before the Senate. And we call on Senators to pass 
it before the end of the year. Tibetan Americans, ICT members, 
and Tibet supporters sent several thousand petitions to Senate 
offices urging support for the TPSA. This will be a powerful 
message of hope to the Tibetan people, who are otherwise faced 
with the daily oppressive policies of the Chinese authorities. 
The legislation affirms that it's only up to Tibetan Buddhists 
to select the next Dalai Lama, without any government 
interference. It acknowledges, also, the fragility of Tibet's 
environment and the key role Tibetans play in its preservation.
    The TPSA also expands the mandate of the special 
coordinator for Tibetan issues--a senior position at the State 
Department which, unfortunately, has never been filled during 
the last four years. The absence of a special coordinator could 
be one reason why there hasn't been much movement on the 
Tibetan dialogue process from the Administration side. With 
only a few months left in the current term of the 
Administration to do anything meaningful, the next 
Administration, whether it's Republican or Democratic, should 
quickly appoint a special coordinator for Tibetan issues at the 
undersecretary level, not at the lower-level position, because 
doing that will send the wrong political message of diminished 
U.S. support for Tibet both to the Chinese government and to 
the Tibetan people.
    While talking about the post-election Administration, we 
have launched a Tibet 2020 campaign, so that the Presidential 
candidates of both parties are apprised of the American 
people's strong desire for Tibet to be a high priority. We look 
forward to working with the White House and Congress in our 
common objective of supporting the people of Tibet to regain 
their rights and dignity. Thank you very much.
    [The prepared statement of Matteo Macacci appears in the 
Appendix.]
    Chair McGovern. Thank you very much. Before we go to our 
next witness I'm going to yield to our cochair Senator Rubio 
for anything he would like to say.

STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM FLORIDA AND 
      COCHAIR, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator Rubio. I'll be very brief. I'm sorry I'm late. It's 
been pretty crazy here. And I haven't even left the house yet. 
So I appreciate your holding this hearing, Chairman. And 
obviously this is a very important issue. I hope that we can 
act legislatively on it. We have to continue to talk about, 
clearly, the outrages we've seen with the Uyghur population in 
Xinjiang. It's something we need to continue to focus on. But 
the ongoing abuse of the Tibetan people, the effort to strip 
them of their ethnic and religious identity, is an outrage 
that's been documented for a long time, but one that we cannot 
lose focus on, and one that we need to continue to update--as I 
just heard the previous witness say--update our foreign policy 
to continue to reflect forward.
    So thank you for holding this hearing. I'm late, so I don't 
want to take up any more time. I know everybody's running 
around with different things going on. So I appreciate it. And 
thanks for holding this hearing.
    Chair McGovern. Thank you very much.
    I now yield to Tenzin Dorjee.

  STATEMENT OF TENZIN DORJEE, ACTIVIST AND WRITER, AND SENIOR 
            RESEARCHER AT THE TIBET ACTION INSTITUTE

    Mr. Dorjee. Thank you, Chairman McGovern, Cochair Mr. 
Rubio, and members of the Commission for allowing me to testify 
on behalf of the Tibetan people.
    Over the course of seven decades the Chinese government has 
waged an unrelenting campaign of violence and coercion aimed at 
eradicating the Tibetan people's faith, identity, and way of 
life. As China becomes a global power, the threat it poses to 
freedom and human rights goes far beyond Tibet. Beijing's 
surveillance and influence operations are undermining the 
liberty and security of those living in America. China uses a 
sophisticated set of tools, tactics, and strategies to conduct 
what I would call repression without borders.
    One strategy is the weaponization of access--access to 
markets, to family, to funding. By carefully controlling 
access, China buys the silence of American individuals and 
corporations, even Hollywood and the NBA. Of special relevance 
to Tibetans is China's visa-as-bait strategy. The Chinese 
government weaponizes access to family in order to coerce 
exiled Tibetans into silence and political impotence. They do 
this through a visa policy that is blatantly racist against 
Tibetans.
    Let's say you are a Tibetan American applying for a visa at 
the Chinese consulate. There is a main window where everyone 
checks in, but you can't use that window because you are 
Tibetan. You are taken to a separate area where a liaison 
officer interviews you. You have to write a personal statement 
in which you narrate your whole life history, name all the 
groups you've ever joined, and state whether you've ever 
participated in a protest. Each piece of information is a data 
point that the consulate might use against you later.
    Most importantly, you have to provide the names and IDs of 
your relatives in Tibet, so the Chinese government knows who 
you are and knows who your relatives are. Now the fate of your 
relatives is somehow your responsibility. They are the hostage; 
you are the target. Then the consulate makes you wait, 
sometimes for up to a year. Eventually the liaison officer 
calls you in for a longer interview. He'll ask you again: Have 
you ever participated in pro-Tibet activities? When you say no, 
he shows you a photo. It's a photo of you attending a teaching 
by His Holiness the Dalai Lama. That settles it. Beijing has 
your data and you have no visa.
    In one disturbing case, the liaison officer knew things he 
had no business knowing. He knew that the Tibetan visa 
applicant had a dog, he knew what breed the dog was, he even 
knew the dog's name. His message was clear: We are watching 
you. This insidious campaign to control exiled Tibetans in 
order to divide the community and kill the movement is 
bolstered by the rise of WeChat. While ordinary apps are 
platforms for expression and communication, WeChat is the 
ultimate platform of censorship and state surveillance. It 
facilitates the transnational repression that Beijing employs 
to silence overseas dissidents and activists.
    The same regime that threatens the lives of Tibetans, 
Uyghurs, and Hong Kong citizens on the other side of the world 
is threatening the rights of American citizens here. I urge 
Congress to ensure that Chinese consulates abolish their racist 
visa policies and stop the surveillance and intimidation of 
American citizens.
    Since 2009, over 166 Tibetans have self-immolated to 
protest Chinese rule. Today Tibetans in Tibet are using the 
tiny amount of space they have to wage small but important 
campaigns to defend their language and to protect the 
environment. My colleagues have documented 71 such incidents 
between 2015 and 2019.
    Tibetans fight for human rights, the freedom to use their 
language, and the freedom to worship freely. These rights are 
tied together by a deeper yearning for political freedom. 
Beijing wants to de-politicize the Tibet issue. I urge you to 
re-politicize it. Tibetan freedom is a truly bipartisan cause 
that brings Democrats and Republicans together. I humbly ask 
you now to lend your moral and political authority to initiate 
a multilateral and coordinated effort to support Tibet's right 
to self-determination.
    One concrete action Congress can take is to recognize 
Tibet's historical status as an independent nation and its 
current status as a disputed territory. That in itself would 
change facts on the ground. Language has the power of action. 
And Congress has the power to set precedents. After all these 
years, the Chinese government has lost the battle for the 
hearts and minds of the Tibetan people. And its insecurity is 
making it increasingly bellicose. But the Tibetan people 
continue to resist with courage and patience. They know that 
freedom struggles take time. They also know that freedom often 
comes when it's least expected. Tibetans have never given up on 
their struggle for freedom, and neither should we. Thank you.
    [The prepared statement of Tenzin Dorjee appears in the 
Appendix.]
    Chair McGovern. Thank you very much. And finally, I want to 
yield to Sophie Richardson.

                STATEMENT OF SOPHIE RICHARDSON,
               CHINA DIRECTOR, HUMAN RIGHTS WATCH

    Ms. Richardson. Good morning, Chairman McGovern and 
Chairman Rubio, members of the Commission. It's always a 
privilege to be with you.
    Following the 2016 detention of Tibetan language rights 
activist Tashi Wangchuk, a spate of protests about language 
across the Tibetan Plateau, and concerns articulated by people 
inside and outside Tibetan areas, Human Rights Watch documented 
this year Chinese government policies and practices related to 
mother-tongue education for Tibetans. What did we find? First, 
that the Chinese government's use of the term is deeply 
misleading. It is not the case that students across Tibetan 
areas are being taught equally in both languages. State 
policies are, in fact, leading to the gradual replacement of 
Tibetan by Chinese as the medium of instruction, except for in 
a single Tibetan language class.
    Second, that while this trend has been visible at urban 
secondary schools, we're now seeing so-called bilingual 
education increasingly in primary schools and even in 
kindergartens, and increasingly across rural areas. Third, some 
of the tactics that we detailed include indirect pressure on 
primary schools, including the employment of only Chinese-
speaking teachers, while at the same time requiring all Tibetan 
teachers to be fluent in Chinese. Regional policies promote 
what are referred to as mixed classes or concentrated 
schooling--mixing together Tibetan- and Chinese-speaking 
children--which is fine--to justify the use of only Chinese in 
the classroom--which is not.
    The third tactic we looked at was the lack of and/or 
diminished use of Tibetan language texts or other materials, 
such that relevant materials are really now very difficult to 
find, let alone use. In sum, it's an approach to schools and 
schoolchildren that appears to be eroding the Tibetan language 
skills of children and forcing them to consume political 
ideology and ideas contrary to those of their parents and their 
community. Chinese authorities claim that this approach is 
improving education and employment opportunities, but the 
imperatives are clearly highly politicized and assimilationist.
    Global evidence shows that children's educational 
development is adversely affected, particularly in the case of 
minority and indigenous children, when they are not taught in 
their mother tongue in the early years of education. The broad 
policy justifications, including ethnic mingling and poverty 
alleviation, seek to integrate Tibetans with a Han majority, 
into the mainland economy, and into Communist Party ideology, 
at the expense of Tibetans' rights to culture, livelihood, and 
religion.
    It's worth pointing out that Human Rights Watch's in-house 
experts on children's rights and education, who work globally, 
were truly taken aback at the extent of patriotic education for 
children as young as three or four. The outcome, I think, is 
painfully obvious. Cultural and linguistic erasure for 
Tibetans, further protests, and parents who actually clearly 
want a genuine bilingual education, deeply alienated. And 
increasingly, I think we have to be concerned as we watch these 
issues play out, not just as we have in Hong Kong or in 
Xinjiang, but now increasingly, as Mr. McGovern mentioned, for 
communities of Mongolian speakers and now even Korean speakers.
    A quick word on what human rights law has to say. China's 
2001 law on regional national autonomy actually sets out 
protections for mother-tongue education, especially at the 
kindergarten level. The Convention on the Rights of the Child, 
to which China is a party, and the ICCPR, to which China is a 
signatory but has not yet ratified, guarantee children the 
right to use their own language. And the UN Declaration on the 
Rights of Indigenous Peoples--which China has endorsed, sets 
out not just rights to indigenous language education, but the 
right of indigenous communities to make decisions for 
themselves about education and what language ought to be 
offered.
    UN experts first started critiquing Chinese government 
policies on these issues in 1996, so they are well established 
and deeply problematic. Mr. Mecacci mentioned earlier Xi 
Jinping's comments at the Seventh Tibet Work Forum in late 
August, doubling down particularly on education issues. Clearly 
this is a vector of control that the government and the Party 
care about.
    What can be done? A few quick thoughts: I think there's 
room for the U.S. Government to support any and all mother-
tongue language education efforts, including preserving and 
developing Tibetan language materials, such as textbooks. There 
are also Tibetans who don't speak Tibetan. Those language 
rights need to be respected as well. There's room to support 
robust scrutiny of the Chinese government's forthcoming UN 
treaty body reviews, and mounting evidence of similar tactics 
across China urging Chinese officials to allow ethnic 
communities to use their own languages when and how they see 
fit, particularly in education.
    I also want very much to encourage commissioners to find a 
way to support the call by 50 UN human rights experts, 
published in late July, for heightened scrutiny of China at the 
Human Rights Council. It is time to end Beijing's sense of 
impunity for a host of gross human rights violations. Thank 
you.
    [The prepared statement of Sophie Richardson appears in the 
Appendix.]
    Chair McGovern. Thank you very much. I appreciate 
everybody's testimony. I'm going to ask questions at the end. 
And I think Senator Rubio just had to step out. So this is the 
order that I'm going to yield to people: Smith, King, Suozzi, 
Cotton, Hartzler, Peters, McAdams, Daines, and Levin. I'm not 
sure everybody's here, but I'm told that they may be. So let me 
at this point yield to Congressman Chris Smith.

                 STATEMENT OF HON. CHRIS SMITH,
             A U.S. REPRESENTATIVE FROM NEW JERSEY

    Representative Smith. Thank you very much, Mr. Chairman. 
And thank you for pulling this hearing together. The witnesses 
were extraordinary. I am ranking on Africa and we have a 
hearing going on, so I'm going back and forth. I apologize that 
I missed the opening. I do have a statement I'd like to make 
part of the record, without objection. An opening statement.
    Just a couple of points. I thought, Dr. Richardson, your 
points about the mother tongue and the language issues, the 
education issues--you know, this has been a full-court press 
for seven years--to displace the Tibetan Buddhists from their 
own country and deprive them of their own culture and faith. 
I'm wondering if there's--it's 70 years of genocide. We're all 
talking about, as we should, the genocide that's being 
committed--Xi Jinping's genocide against the Uyghurs--the 
Muslim Uyghurs. But just because this has gone on for decades 
doesn't make it any less egregious. And I'm wondering if 
there's movement--and I agree with the UN Human Rights Council 
that there needs to be--you know, some very bad actors help 
control their agenda. And China has been disproportionately 
effective in mitigating any kind of scrutiny that is really 
serious.
    As ranking member on this Commission and former chairman, 
I'm happy to be the Republican cosponsor of the Tibetan Policy 
and Support Act, and I want to thank, again, the Chairman for 
introducing it. Hopefully, the Senate will take it up soon. But 
this is an ongoing genocide. And perhaps some of you could 
speak to what the Dalai Lama himself has written about, and 
that is the Han Chinese population transfer, where they 
systematically bring people in to displace the indigenous 
Tibetans over time. And how poorly or well has that worked? 
Unfortunately, probably all too well.
    And finally, on the whole sinicization of religion in all 
states in China, I and other--all of us are concerned about how 
Xi Jinping has made it a matter of absolute dogma that all 
faiths have to comport with his principles. We see, 
unfortunately, a lot of kowtowing going on. You know, some 
church bodies are doing it. Some are doing it very reluctantly. 
But with the Tibetans it's been 70 years of this. And I'm 
wondering if you can speak to how we can push back on that 
further because, again, these are violations of internationally 
recognized human rights.
    So if you could speak to some of that, the 70-year 
genocide--it's time we called it that. I mean, you just read 
the genocide convention and no matter who's a party to it or 
not, there needs to be, I think, a focus on the horrific things 
they've done. And do we think the Panchen Lama is still living? 
I mean, we're all concerned about that as well. And I thank 
you, Chairman. I yield back.
    Chair McGovern. Thank you. Do you want anyone in particular 
to answer those questions?
    Representative Smith. Dr. Richardson, maybe, might want to 
speak to that and particularly on the UN and the whole idea of 
genocide, and any others who would like to jump in. Sophie, 
good to see you.
    Ms. Richardson. Thanks, Mr. Smith. (Laughs.) It's a huge 
question. And maybe what I can suggest is that the--we have a 
very long conversation about whether the high threshold that's 
set out for genocide claims is met, but that's an enormous 
conversation in and of itself. Equally important I think, and 
hopefully most salient to members of this Commission, is how 
you go about getting to or creating a competent court that 
could hear this. You know, there are many roadblocks in the 
path to accountability, particularly for China.
    You mentioned the challenges at the UN's Human Rights 
Council. Those exist. But there are other ways of getting to 
that point. You know, the secretary-general, the high 
commissioner can, you know, appoint a standing committee to 
look at these issues and report back to the council. There are 
other mechanisms through the formation of ad hoc tribunals. And 
I think that's as much of a challenge--a political and 
diplomatic challenge--as the legal discussion about the 
thresholds of genocide. So I'm happy to try to elaborate on it, 
if that's helpful. I don't think I can answer the eight other 
questions I just counted you asking right now. Unless you want 
me to. I can try. (Laughs.)
    Mr. Dorjee. Mr. Chairman, can I add a quick point to 
Sophie's answer? Thank you very much.
    I would like to say I think the slow-moving genocide of the 
Tibetan people by the Chinese government is a real phenomenon. 
And even as recently as 2014 and '15, a judge in the Spanish 
High Court examined the evidence and concluded that what the 
Chinese government perpetrated against the Tibetan people was a 
crime against humanity and genocide. And one thing that we've 
got to keep in mind that's very important is that one genocide 
begets another. And what we are seeing right now in Xinjiang, 
which the Uyghurs call East Turkestan, absolutely looks very 
much like the beginnings of genocide.
    And one huge reason why this is happening right now, why 
the Chinese government even in a supposedly anti-colonial era, 
even in the 21st century--in the beginning of the 21st century, 
is able to recklessly do this operation in Xinjiang, is because 
they were emboldened by the silence of the world when the 
genocide was happening in Tibet. If the world had been more 
actively and proactively opposed to the Chinese genocide in 
Tibet, they would not be able to do this to the Uyghur people 
right now. So these incidents--what's happening in Tibet, 
what's happening in Xinjiang, what's happening in Hong Kong, 
these are all connected.
    When we come up with solutions to each of these problems, 
we have to absolutely keep the bigger historical picture in 
mind and come up with solutions to the entire scenario. I think 
that's really important. Thank you.
    Representative Smith. Thank you so much.
    Chair McGovern. Are we all set, Mr. Smith, do you think?
    Representative Smith. I think so.
    Chair McGovern. Thank you. Thank you very much. I will now 
yield to Senator King.
    Senator King. Thank you, Mr. Chairman.
    I guess I'd like to start with a question to Mr. Dorjee or 
Mr. Mecacci. Why? Why is China doing this? China's a massive 
country. Why are they wasting all this time and energy on a 
country of six million people on the very edge of their sphere 
of influence? What's this all about?
    Mr. Mecacci. Yes, I can take that. I would say Tibet is of 
strategic importance to China for many reasons. I mean, Tibet 
itself, if you look at the map of the Tibetan Plateau, is 
almost as big as Western Europe. And for centuries that region 
has served also as a buffer zone with India and with other 
regions in Asia. So the decision of the Communist Party 70 
years ago, immediately after the revolution took over, they 
decided to invade Tibet, as a plan really to consolidate their 
rule and protect themselves from external influence. You know, 
there had been influence in Tibet for the British; India had 
the special relationship also with the region. So there are 
geopolitical reasons why Tibet is important.
    Also, Tibet is an area of immense natural resources. Eight 
of the major rivers in Asia originate in Tibet--from the Mekong 
River, to Brahmaputra, and other places. And as many analysts 
say, it's possible that the next wars will not be about oil but 
about water because of global warming and the scarcity of water 
in the region. And we have seen recent articles in which there 
have been reports in which the Chinese government has used the 
dozens of dams that they have built on the rivers in Tibet to 
slow the flow of water to downstream countries. Last year there 
was a drought in Cambodia and Vietnam on the Mekong, while 
apparently in the northern part of the river there was a lot of 
water.
    Then there is the recent--as you have seen--the recent 
skirmishes and fighting at the border with India. That is 
mostly about the border that previously was with Tibet. And in 
military terms, if you control the plateau, you are at an 
advantage from the military point of view.
    Then there is another issue. I think it's a cultural issue. 
Every authoritarian government has an inclination to try to 
control spiritual power. We see that. Many conflicts in the 
world are connected to religion and the need to control 
religion. The Tibetan identity's strictly connected to Tibetan 
Buddhism. So for them, for the Chinese Communist Party, first 
of all, it was an ideological struggle to try to destroy 
religion, as part of their ideology. Then when they realized 
that the Tibetan connection with religion is so deep, now they 
have moved to the idea of trying to have total control of 
religion and use religion as a way to legitimize their power.
    Their problem is that the Dalai Lama is the most respected 
Buddhist leader for the Tibetan people and for Tibetan 
Buddhists, not only all over the world but still inside Tibet. 
So they lack legitimacy. And so the call for dialogue with the 
Dalai Lama, the call for a political solution, actually would 
be in Chinese interests if they really want to try to stabilize 
the situation. But unfortunately, what we have seen even at the 
last Tibet Work Forum is that the Chinese government continues 
to try to pursue assimilation and total control, to maintain 
their political power.
    Mr. Dorjee. And if I could add very quickly to Matteo's 
answer--that's exactly the reason why China is throwing caution 
to the wind and going all out in Tibet and in East Turkestan. 
And legitimacy is at the heart of it. The Chinese government 
knows that it has no legitimacy in Tibet and Xinjiang. And 
because of that problem, it makes them very insecure. And it's 
Beijing's fundamental insecurity that makes the Chinese 
government pursue these genocidal policies, because at the end 
of the day their goal is to destroy the Tibetan people and the 
Uyghur people as an ethnic group or as a religious group, 
because they want Xinjiang without Uyghurs and a Tibet without 
Tibetans.
    Senator King. It was interesting. You used the word 
``insecure.'' That was the exact word I was thinking of. It's 
an insecure regime that has so much power, and so many people, 
and so much economic power that it can't tolerate the slightest 
deviation. That's an indication of insecurity.
    Let me ask--and I don't know if any of you know the answer 
to this--but 20 years ago, a little more than 20 years ago, 
China was admitted to the WTO. The assumption was that 
integrating China into the world economic community would lead 
to a liberalization, a kind of opening up of a market society, 
which would lead then to some level of democratization. 
Manifestly that hasn't worked. And the only real--we can't 
intervene directly in the internal affairs of another country 
or how they are relating to their neighbors. On the other hand, 
trade is certainly an important part of this message.
    How much of China's economy, if anyone knows, is dependent 
upon exports to the rest of the world--to America, or the rest 
of the world? Does anyone have a guess or knowledge of that? 
What I'm getting at is it strikes me that the one real power 
the rest of the world has is economic. And if China's 
substantially dependent upon exports, the rest of the world can 
say, we're not going to buy any more until you start acting 
like a mature, responsible, and secure country. And, you know, 
if you had a store in your town that was discriminating 
terribly against its employees and was doing all kinds of human 
rights abuses, people in town wouldn't buy from them anymore. 
And then if they wanted to stay in business they'd have to 
clean up their act.
    Any thoughts on that? Because that strikes me. And we can 
do sanctions, and we can do resolutions and such, but the power 
of the economy, it seems to me, is the most substantial power. 
And it shouldn't be just America. It should be a worldwide 
program. If we do it alone, then it's--then it loses its 
strength, it seems. Any thoughts from our witnesses?
    Mr. Dorjee. I would only say that the power of economic 
sanctions against a regime like China would have worked 
effectively in the '80s or the '90s. Today I think we have to 
think larger than economic sanctions alone, if it is to work. 
And Ai Weiwei in an interview this past week said it is too 
late to curb or contain the Chinese regime's power. And I think 
it is actually too soon to give up. And because America and the 
liberal democratic order in the West was partly responsible for 
bringing the genocidal regime of China into the global 
community of nations back in the day, I think we also have a 
fundamental responsibility right now to make sure that this 
regime changes its behavior. And in order to do that, I think 
economic sanctions are a great place to start, if and only if 
we think beyond that and start thinking about the moral, 
political, and cultural isolation of this regime, the way we 
did with the dictatorial regime in South Africa during 
Apartheid. I think we have to reach back into history and look 
for some of these more expansive measures for isolating the 
regime.
    Senator King. Thank you. Very, very helpful. Thank you, Mr. 
Chairman.
    Chair McGovern. Thank you. Mr. Suozzi.
    Representative Suozzi. Thank you, Mr. Chairman. The work of 
this Commission is so important. This is--as everybody's 
spoken, the Chinese Communist Party has a 70-year head start. 
And taking all the information as to what's going on and 
getting it through this Commission and out to the public is so 
important, considering that this has been going on for such a 
long time. Sixty-one years ago the Dalai Lama was exiled from 
his own country. Twenty-five years since the Panchen Lama was 
abducted. So similar to what Angus talked about, the WTO, ever 
since Nixon went to China, we've thought the more they were 
exposed to us, and the more they were exposed to the rest of 
the world and democracy, and the world economy, the more they'd 
become like that. That simply has not happened.
    And we see it has been testified to so many times. We had 
our hearing on the Uyghurs and we heard language--crimes 
against humanity, forced sterilization, forcing people to eat 
pork when it's against their religion, forcing people to eat 
when they're supposed to be fasting. I mean, it's--we see it 
with the Hong Kong students and the protesting that's going on. 
We see it certainly with the Tibetans. And there was an article 
dated September 21st from Reuters. The first line is, ``China 
is pushing growing numbers of Tibetan rural workers off the 
land and into recently built military-style training centers, 
where they are turned into factory workers, mirroring a program 
in the western Xinjiang region that rights workers have branded 
coercive labor.''
    So I mean, the Chinese Communist Party has an overwhelming, 
sophisticated plan to dominate the world economically, 
militarily, in space, and on land. And Senator King referred to 
Tibet being the edge of their sphere of influence. Well, with 
the Belt and Road Initiative, we know their sphere of influence 
is much, much bigger than that. And they want to influence the 
whole world. And we see how they treat their own people. So I 
think it's important for us to constantly educate Americans as 
to what the Chinese are up to.
    And I don't even know if my colleagues are aware . . . it 
was referenced briefly by some of the folks here, but I think 
it was just last week that a New York City police officer was 
arrested because he was working for the Chinese Communist Party 
to spy on the Tibetans. They actually have a recording of him 
talking to Chinese officials saying, Go--the same center you 
and I, Chairman McGovern, did our hearing at--they said: Make 
sure you go to this Tibetan center, and you watch what's going 
on there, so you can see who's trying to undermine the Chinese 
efforts.
    In Elmhurst, Queens, just outside my district, in Grace 
Meng's district, we had a rally in February of this year where 
we talked about the Elmhurst Library. It was showing historical 
propaganda from the Chinese Communist Party about the history 
of China that was completely misleading. Didn't talk about the 
Tibetans. So the Tibetans rallied against it, and they got them 
to take that down at the Elmhurst Library. And we hear about 
the Confucius Centers on a regular basis.
    So I want to ask, you know, the Chinese have a 
sophisticated, well-organized economic propaganda plan, not 
only in their own country but to export what they're doing in 
their country to other parts of the world. So I want to just 
ask the witnesses, can you give any other examples of things we 
should be conscious of that the Chinese are doing beyond their 
borders, you know, that we should be--especially in the United 
States. I talked about the police officer that was arrested for 
spying, the Confucius Centers, the propaganda at the Elmhurst 
Library. Give us--what else are they up to that we need to be 
conscious of? We know about the Uyghurs, we know about the Hong 
Kong students, we know about the Tibetans. What do we need to 
be conscious of?
    Mr. Mecacci. If I may take that? Congressman, good to see 
you.
    Representative Suozzi. Thank you, Matteo.
    Mr. Mecacci. I think one issue that we should pay attention 
to is the plan of Chinese state media to expand operations 
worldwide. Over the last four years, both the state news agency 
and Chinese state TV have been expanded to thousands of 
languages all over the world. So they basically take advantage 
of their entrance into the WTO, and they have free access to 
the markets in the world, and they're promoting--they use these 
tools for propaganda. At the same time, they do not open the 
huge Chinese market to anyone for media to be able to broadcast 
in China, even the New York Times Chinese website is not 
available in China.
    So this goes back to the question of reciprocity, and also 
to the question that Senator King asked before. Certainly 
export is a huge part, you know, of the Chinese economy. But 
what China has been able to do is take advantage of the 
economic opportunities outside, usually with its strategic goal 
of expanding their influence, while at the same time 
restricting access for foreign companies in China, especially 
when it comes to media; as you know, social networks, Google--
they're not allowed access to the Chinese markets. So I think 
many businesspeople now realize that this is not sustainable, 
that you cannot allow Chinese companies to have their own 
internal sort of monopoly, and then have free access to the 
markets all over the world. How can you compete with that? So I 
think that the question of rebalancing and calling for 
reciprocity and stopping those activities that are not 
reciprocated by China in the U.S., I think it's a sound 
approach to try to----
    Representative Suozzi. Thank you, Matteo.
    And if everybody could just give me one brief thing that 
they think we should be aware of. Maybe Tenzin Dorjee, if you 
could give me one example?
    Mr. Dorjee. Hi, Representative Suozzi. Good to see you. 
Thank you.
    I think there are plenty of examples. Just this past week, 
I think we should also be paying attention to things that are 
happening inside the U.S., as well as outside the U.S. And a 
couple years ago, people might remember, there was a Tibetan--
actually a Chinese agent who was ethnically Tibetan in Sweden--
who was arrested in Sweden. And just this past week, the 
Swedish court decided to deport this Chinese agent working for 
the CCP. He was spying on the Tibetan community in Sweden. And 
I think that's--you know, it may be happening in Sweden. It's a 
small country. But I think we've got to--it's a very good 
indicator of what the Chinese government is doing because----
    Representative Suozzi. Well, it's happening in New York 
City.
    Mr. Dorjee. Yes, yes, absolutely.
    Representative Suozzi. I mean, it's happening right outside 
my district.
    Mr. Dorjee. Absolutely. There is a very, very small Tibetan 
community in Sweden. And even in a small community, less than 
100 people, even in a small community like that the Chinese 
government is investing tons of resources spying on that 
community. And the new case is exactly the same. In many ways, 
the Tibetan community--among the Tibetan community we have 
suspected for a long time that the Chinese government was 
sending agents, informers.
    And their main goal--you know, they have a twofold goal of 
doing this. And the first goal is, of course, to collect 
information and data from the local Tibetan community. And the 
other is to influence the community, actually. And this 
particular Chinese agent who was arrested last year--a couple 
of weeks ago, it became very clear that what he was trying to 
do was influence the Tibetan community not to engage in 
political activities. And he was wearing an NYPD uniform. And 
in the Tibetan community, there is respect for--high respect 
for law enforcement. And he knows that.
    And I think the Chinese government's main goal in this case 
is to divide the Tibetan community in order to destroy the 
Tibetan movement. Because they are really fully aware that the 
global Tibetan community--especially in the West, especially in 
America--has been extremely successful in inflicting a huge PR 
cost to the Chinese government. They've played a huge role, 
alongside our supporters, in exposing the brutality of the 
Chinese government. And that's why several years ago the 
Chinese government decided that they were not only going to 
crush the Tibetan people inside Tibet, but they were actually 
going to start paying attention to crushing the Tibetan 
movement globally. And this is part of their master plan. And 
what happened in New York is basically the tip of the iceberg.
    Representative Suozzi. OK. Thank you.
    I don't know if I have time left, but Dr. Richardson, just 
briefly.
    Ms. Richardson. Yes. Mr. Suozzi, if I can make this even a 
little bit bleaker, because the problem is that you don't even 
just have to be Tibetan or Chinese to be experiencing these 
problems. About three weeks ago Human Rights Watch led on a 
global civil society sign-on letter, directed at--essentially 
at accountability for China at the Human Rights Council. And 
groups from Vietnam, and Venezuela, and Azerbaijan signed on. 
We had two groups in the United States that do not specifically 
do work inside China decline to sign, even anonymously, because 
they were afraid that it would be known they had joined and 
that it would compromise their ability to get ECOSOC status to 
be able to carry out advocacy at the United Nations. That's a 
serious problem.
    Representative Suozzi. Very serious. All right. Thanks, 
everybody. Well, thank you very much, everybody. Thanks for 
your good work. And I know a lot of people are really working 
hard. And we just want you to know that we support you. And 
this Commission will continue to try to provide a voice for 
people who are really voiceless on this issue. Thank you so 
much.
    Chair McGovern. Thank you very much.
    Senator Cotton? OK. Representative Hartzler. Senator 
Peters. Representative McAdams. Senator Daines. Representative 
Levin.
    Representative Levin. Thank you, Mr. Chairman. I'm here and 
I'm happy to go. I know other people are running around with 
all our continuing activities. But there's none more important 
than this one. And I'm really honored that you allowed me to 
participate in today's hearing. And I've got a lot of things 
I'd like to ask about. So let me jump right into it with this 
amazing panel of witnesses.
    We've heard about numerous reports of the Chinese 
government tracking and harassing the Uyghur diaspora through 
WeChat, through its embassies, through malware. And these 
instances include coercing Uyghurs to refrain from activism and 
return home, possibly to be jailed--by threatening their family 
members in Xinjiang. And this has come up this morning. Let me 
ask you, Mr. Mecacci, it's great to see you, a couple questions 
about this. Talk about how the Chinese government may be 
subjecting the Tibetan diaspora to extraterritorial coercion 
and harassment. You know, what is going on here? It's very 
troubling.
    Mr. Mecacci. Yes. I think Tenzin has already mentioned one 
clear example of pressure that is put on the Tibetan diaspora 
everywhere in the world. I mean, we are talking about people 
who have either escaped from Tibet because of the repression or 
who are now the second generation of Tibetans abroad. And many 
of these people have a very strong connection with Tibet. Many 
of them have families. So the idea of being able to keep in 
contact and travel there, it's a very important issue for every 
diaspora community, because the goal in the end is to be able 
to go back to your land.
    And so China basically has weaponized the question of 
access to Tibet. And as it came up here from the indictment of 
the FBI that has been published on the Chinese by New York, the 
Chinese consulate is using pressure--whether providing visa 
access to Tibet as a way to try to either recruit new spies by 
offering that opportunity for people to go back, or denying 
access to those who, you know, participate in Tibet freedom 
movement activities. And this is very concerning, because this 
is a way also to create suspicion in a community, because if 
people start thinking, you know, who got a visa to be able to 
go to Tibet? . . . and how did they get it? So I think it's 
very important that law enforcement look into that.
    And, for example, for former political prisoners, there are 
people who have escaped from Tibet. If they testify, if they do 
activities, their families are in danger. Their families 
continue to receive calls and they get visits from Tibetan 
officials and Chinese officials in Tibet. And so this kind of 
intimidation is really affecting the Tibetan diaspora. And 
Chinese influence all over the country, all over the world, is 
increasing. So these actions are only going to continue to 
increase.
    Representative Levin. Thank you. And I thought Tenzin's 
written testimony and what you said this morning was really 
powerful.
    Let's talk a little bit about the New York Police 
Department officer who was charged with spying. What kind of 
information is China hoping to glean from agents like this? And 
is there a reason to believe that there's a larger campaign 
underway to spy on Tibetans in the U.S.? You've talked about 
this some, but I'm particularly interested in this kind of, 
actually using people in a police department or other official 
positions like that. And what should the U.S. do? What can we 
do to prevent this kind of horrific thing from happening?
    Mr. Dorjee. Thank you, Representative Levin.
    I would just like to add very quickly the part about the 
identity of the agent who was arrested in New York. In many of 
the media stories, he was identified as an ethnic Tibetan 
working for the Chinese Communist Party. And one thing about 
his identity--while there was no doubt that he was a spy 
working for the CCP, there was actually a great deal of doubt 
surrounding his identity. Many of the Tibetan people in the 
community, including the community board leaders and others who 
actually met him in person, do not think that he's actually 
Tibetan. And there were a couple of reasons for that.
    When he first met them, he could not understand the Tibetan 
language. He could not communicate in the Tibetan language at 
all. And he said he was Tibetan, but people who spoke with him 
said that he could not speak the central Tibetan dialect--the 
mainstream, standard dialect. He could not speak the Amdo 
dialect. He could not speak the Kham dialect. And of course, 
there are Tibetans who have good reason not to be able to speak 
Tibetan, but not if you are from Tibet.
    And the other thing is, he mentioned to some people that he 
was from this place called Garong, in far eastern Tibet. And 
the thing about Garong is if you were really from Garong you 
have a good excuse not to be able to speak the standard Tibetan 
dialect, because in Garong you speak a different dialect of 
Tibetan. But in that case, there would have to be somebody from 
the Garong community who could verify that this guy is somebody 
from their village and they know him. There is no such person 
in the entire community who has verified that they knew this 
guy from back home. So that's very suspect.
    Mr. Levin. So who do you think he might be? Who do you 
think he might be?
    Mr. Dorjee. The thing that we know about him is that his 
parents--both of his parents work in the Chinese Communist 
Party. They work for the CCP, which makes it extremely unlikely 
that he was actually persecuted in Tibet or in China. While his 
story to the United States court while applying for political 
asylum--he's somebody who came here, then applied for political 
asylum saying that he was persecuted back home by the Chinese 
government. So he was clearly lying in his entire story. That 
means we don't know what else he's lying about. So I just want 
to put that out there.
    And it seems that there are two things that these agents 
from the Chinese government usually try to do. One is, they 
want to infiltrate the community so that they can get as much 
information as possible. And one goal of this information is to 
link people who are in exile to people who are in Tibet. And 
once you make that link between exile and inside Tibet, then 
the Chinese government is able to use that relationship in 
order to execute their repression.
    There are multiple stories of Tibetans who are able to go 
to Tibet, and at the end of their meeting with the United Front 
Work Department or the Chinese security people who come to see 
them, they tell Tibetan Americans, or Tibetan French, or 
Tibetan Europeans, with Western passports--they are told by the 
Chinese agents that you--you know, you have a foreign passport, 
but always remember that your family here do not. And it's a 
very clear, thinly veiled kind of threat. And that's one 
purpose that they use this information for.
    The other purpose is to de-politicize the Tibetan 
community. Like Matteo said, they want to create doubt and 
suspicion within the community. And that's an age-old, time-
tested tactic of the Chinese government through the United 
Front Work Department. Professor Anne-Marie Brady has called 
these things--these tactics--China's magic weapons. And the 
Chinese government purposefully uses these kinds of weapons. 
And they do this for the Tibetan community as well. They try to 
sow doubt, to make people suspect each other. And once you have 
created that kind of doubt within the community, then people 
don't actually need to be real spies or informers. You just 
divide the community and destroy the movement. And that's what 
China's trying to do to the Tibetan community.
    Representative Levin. Mr. Chairman, I have more questions, 
but I don't--I don't see a clock, so I don't want to abuse my 
time.
    Chair McGovern. Yes. I'm so used to the Rules Committee 
where there's no clock, that sometimes I let things go on 
forever.
    Representative Levin. OK.
    Chair McGovern. Thank you. Before I ask my question, I want 
to make sure everybody's been--Senator Daines and Senator 
Cotton? I just want to make sure, because I see them up here. 
But I just want to make sure that we don't overlook them.
    All right, Well, let me--let me ask a series of questions 
here at the end. And this is for Zeekgyab Rinpoche. You know, 
as Abbot of the Tashi Lhunpo Monastery you preside over the 
traditional seat of the Panchen Lama. Can you talk about what 
the Panchen Lama means to you, and the monks in your monastery? 
After 25 years of his enforced disappearance, what does he mean 
to Tibetans more generally? Do you think he's still alive?
    Zeekgyab Rinpoche. Thank you very much for the question on 
the Panchen Lama. The Panchen Lama, his importance, and what he 
means to our monastery at the Tashi Lhunpo and to the Tibetan 
people, and Buddhists all over--it means so much to us. His 
release would be a tremendous thing for us. It would mean the 
world to us. We miss his presence in our midst. And we are 
truly saddened. So with the release of the Panchen Lama, the 
monastery and Tibetan Buddhists everywhere, they would be--
surely be overjoyed.
    And so in a nutshell, the Panchen Lama, his release would 
mean that, firstly, this fact would reestablish the unique 
relationship of the Dalai Lama and the Panchen Lama, in terms 
of their teacher-student relationship and in recognizing each 
other's reincarnations, you know, from lifetime to life. So 
this is an important and crucial point for us. And then if you 
look historically, Tashi Lhunpo Monastery has had an 
international base, even when Tibet was free. So scholars from 
different countries, neighboring countries, would come to Tashi 
Lhunpo for study, and scholars from Tashi Lhunpo would go to 
different parts of the Himalayan region and to India for the 
same purpose of scholarship, and learning, and dialogue.
    So today also currently in our monastery, the composition 
of the student body is from different parts of India. We have 
students here right now from different parts of India, from the 
neighboring countries, and not just Tibetan students. So with 
the presence of the Panchen Lama, with his serenity, Tashi 
Lhunpo Monastery would really flourish as an international 
center for learning. And at the same time, with him in our 
midst and with his presence, the lineage of the Panchen Lamas 
will flower. And this will be of tremendous benefit to millions 
of Buddhists all over the world.
    And then finally, with his release, the Panchen Lama will 
have the opportunity to complete his religious mission and 
spiritual practices, in line with the vision and coordination 
of His Holiness the Dalai Lama. Thank you.
    Chair McGovern. Thank you. Just one other thing. And I just 
now see Senator Daines. So I'm going to ask this and then I'm 
going to yield to Senator Daines. Are there any plans or 
initiatives on the Panchen Lama issue that you want the 
Commission to know about?
    Zeekgyab Rinpoche. Yes. We have a host of plans and 
initiatives. And CECC's help in these matters will go a long 
way in the success of our plans and initiatives. So please do 
support and help us.
    First, we have a book about the Panchen Lama which will be 
released on the occasion of the 25th anniversary of the Panchen 
Lama's abduction by the CCP. And then we plan to distribute and 
share this book with interested people across the world to 
create awareness and present the tragic situation of the 
Panchen Lama. In our travels to different places, we want to 
distribute this book and meet different leaders and people, and 
to seek support from more quarters.
    And at the same time, we have an initiative and plan of 
visiting different countries in Asia, Europe, Canada, and the 
USA, especially D.C., in 2021. The basic initiative of this 
type of plan is to spread awareness of the Panchen Lama's life, 
his contributions both spiritually and politically, and the 
struggles that he went through. And so basically we have this 
initiative of travel to seek his release at the earliest 
possible date.
    And then finally we're also planning for an in-person 
hearing regarding the Panchen Lama's release in 2021 during our 
travels. So your support and guidance will be of tremendous 
help in all our plans and in--(inaudible). Thank you.
    Chair McGovern. Thank you very much.
    I see Senator Daines. I'll yield to you, if you have any 
comments or questions.
    Senator Daines. Great. Thank you, Congressman McGovern. 
Much appreciated. And I want to thank you all for coming before 
this Commission and providing your perspective and expertise on 
this very important topic. Human rights, religious freedom, and 
travel restrictions to and within Tibet, are of keen interest 
to me and this Commission.
    Mr. Mecacci, following the Reciprocal Access to Tibet Act 
becoming law in December 2018, the State Department has issued 
two annual reports summarizing the level of access to Tibet and 
other Tibetan areas. Could you describe the impact that the 
passage of that Act has had on U.S. policy and advocacy 
organizations' work on Tibetan issues?
    Mr. Mecacci. Thank you, Senator Daines, for the question.
    I think the passage of the legislation has had a deep 
impact on U.S. policy but also has encouraged advocacy 
organizations to continue to pursue that. You know, the 
campaign for that deal started in 2014. And at the time, there 
was not much discussion about reciprocity between the United 
States and China. Now today we see that reciprocity is a key 
element to try to rebalance U.S.-China relations--not only on 
economic and financial issues, on which, you know, the Trump 
Administration has been quite active, but also on questions 
related to freedom of movement, freedom of information, and 
freedom of expression, and access to the Chinese market.
    So when Congress passed the legislation, it now has 
mandated that the State Department issue these reports. And 
these are very important because they make an objective 
assessment of the level of access granted to Americans. And the 
line--the initial line of the report is that the Chinese 
government systematically prevents access to Tibet for American 
citizens. This is clear discrimination against American 
citizens. And the reaction from the State Department to ban 
Chinese officials who are responsible for it is measured and 
appropriate.
    Senator Daines. This issue of reciprocity . . . what steps 
do you believe other countries might take to push the Chinese 
government on reciprocal access to Tibet and related issues?
    Mr. Mecacci. This issue has been at the center, also, of 
the recent discussion at the EU-China Summit. You know, the EU 
leaders have started to talk about reciprocity--not 
specifically when it comes to access to Tibet, but in general 
with relations with China. And we have seen members of the 
European Parliament and other European parliaments--national 
parliaments--endorsing these campaigns and these principles, 
calling for access to Tibet.
    One point I would like to make--for this strategy to be 
effective, it needs to be an international strategy. It cannot 
be the U.S. alone, because China has too much weight and too 
much influence on many other countries, and they would not be 
able to face that pressure unless there is a sound and solid 
coalition of like-minded countries working on this, to put 
pressure on China.
    Senator Daines. Thank you. A question for Mr. Dorjee. Mr. 
Dorjee, as you know, the United States is not the only country 
to have recently imposed restrictions on Chinese apps. In fact, 
in June India banned the use of the mobile communication 
platform WeChat. Could you discuss how this will affect the 
two-way flow of information into and out of Tibet?
    Mr. Dorjee. I think the flow of information between Tibet 
and the world outside, there has been a lot of debate about it. 
And I fully understand that there are some people who have also 
argued that WeChat as an app may have a lot of problems, but it 
does have the bright side of creating more exchange and 
communication between outside and inside, between Chinese 
people inside China and the Chinese diaspora, between Tibetan 
people inside Tibet and the Tibetan diaspora.
    But one thing that I would like to highlight here is that 
WeChat--while other digital apps are built for communication 
and expression, WeChat as an app is designed for censorship, 
self-censorship, and state surveillance. As a result, right now 
we can say that there is more communication between people 
inside Tibet and outside Tibet than ever before in history--
through WeChat, let's say.
    But the problem is, as Adrian Zenz pointed out in a 
breaking story in Jamestown Foundation, what the Chinese 
government is doing in Tibet right now, especially in the TAR. 
They are moving half a million--close to half a million 
Tibetans into forced labor camps. This kind of project that the 
Chinese government is running in Tibet right now, it took us 
half a year to find out that this was happening. And I think 
this is a very strong indication that more communication and 
more exchange doesn't always translate into more understanding, 
more awareness of what's happening inside Tibet.
    And that's why I think that while banning apps in general 
belongs in the arsenal of illiberal regimes--it may seem like 
an illiberal tactic--while that's the case, an app like WeChat, 
which is meant to surveil people and keep people behind a 
firewall, there is a very, very strong case not to use those 
apps. And that's why I think India is doing the right thing by 
banning those apps. And I think the U.S. also has to consider 
very strongly the weight, the argument for banning apps that 
fundamentally create censorship and self-censorship.
    Senator Daines. Thank you very much for that thoughtful 
answer.
    I have a question for Dr. Richardson. You recently wrote 
about the revival of a Mao-era policing technique which 
establishes police stations even in very small villages, 
turning neighbors on neighbors to watch each other. Could you 
describe how this is being applied and its impact in Tibet?
    Ms. Richardson. Thank you, Senator Daines, for the 
question.
    We wrote recently about what are known as Fengqiao-style 
police posts, which is a reference to an approach to policing 
that was used in the Cultural Revolution. And it really has 
very little to do with actual policing or providing security. 
It is effectively a network for surveilling people and 
reporting back on their political views. And our concern is 
about the expansion of the state's capacity to do that, but 
also the use of that label and the connotations that it brings, 
to hearken back to a decade of appalling human rights 
violations, and to resurrect it, as if that were sort of a 
positive reference point.
    Senator Daines. Thank you, Dr. Richardson, for that. And 
thanks for your writing.
    I have a question for the group. I know I'm running out of 
time. But I want to open to the broader group here. It's 
regarding the U.S. Consulate closing in Chengdu in July and 
what effect that might have on nongovernmental organizations' 
work in Tibetan areas. And then what does that mean for 
Tibetans' access to the outside world?
    Mr. Mecacci. If I may take that one. I mean, the Chengdu 
consulate was a vantage point for all information about the 
situation in Tibet. But it must be said that the level of 
access granted to the U.S. diplomats there was very, very 
limited. You know the Chengdu consulate is outside of the TAR, 
so they could operate more or less freely in the other Tibetan 
regions. But access to the TAR was very, very much limited. So 
I think what is important for the State Department to do now is 
come up with a strategy to address that issue, probably by 
establishing a separate Tibet section, centrally in Beijing, 
that would deal--and Chengdu closing will also affect Xinjiang; 
you know, Xinjiang was covered from Beijing. But I think a 
strategy needs to be adopted to try to address that. You know, 
centralize, and maybe even upgrade the capacity of the embassy 
in Beijing to operate and--you know, and have access to 
information. But it's a loss in terms of access to information 
there, for sure.
    Senator Daines. Thank you. If anybody else has a thought, 
I'm happy to turn--does somebody else have a thought on that 
question?
    Mr. Dorjee. If I could add very quickly, Senator Daines, to 
that question of access for Tibetan people inside Tibet. There 
was a very perverted mirror image of what's happening out here 
as well as what's happening inside there, which is: The Chinese 
government does not allow Tibetan people inside to have 
passports. And it's very--it's often overlooked, and it's not 
often talked about very much, but Tibetans in Tibet, by and 
large, do not and cannot get passports. And even those few 
Tibetans who were privileged enough and able to get passports 
in the past that they were able to use for travel outside the 
country, today do not have those passports. Those passports 
have been forfeited by the government. They've been taken away 
from them. And they are basically adults who are being 
infantilized and kept under lockdown, and not able to travel 
anywhere.
    So Tibetans inside Tibet do not have the freedom of 
movement to travel beyond China. And they also do not often 
have the freedom of movement to travel within Tibet. Tibetans 
from eastern Tibet are not often able to go to visit a place 
like Lhasa. That's like denying Muslims the right to go to 
Mecca. And I think this is very important to keep in mind, 
which is related to how the Chinese government controls the 
movement of Tibetan Americans out here from traveling into 
Tibet.
    Senator Daines. Thank you. Thanks for your very thoughtful 
answers. I'll turn it back over to Congressman McGovern. Thank 
you, Congressman McGovern.
    Chair McGovern. Thank you very much, Senator.
    Let me--I have one question and then we'll close up here. 
Chen Quanguo, now the party secretary of the Xinjiang Uyghur 
Autonomous Region, was until 2016 party secretary of the Tibet 
Autonomous Region. What does his former tenure in Tibet and his 
current position in Xinjiang suggest for the future trajectory 
of repressive policies in Tibet? Are policies currently in use 
in Xinjiang--including mass internment centers and the 
extensive use of coerced labor and mass labor transfers--are 
they being reproduced in Tibet? And what lessons can the 
international community draw from how the ongoing rights abuses 
in Xinjiang have been handled? And I will open that up to 
whoever wants to take it. Sophie.
    Ms. Richardson. Yes. Mr. McGovern, if I could jump in and 
try to also answer one of Mr. Smith's earlier questions. While 
I think the kinds of human rights violations that we're seeing 
in the two regions are somewhat different, they are both grave 
and serious. And to fail to hold Chen Quanguo and other senior 
Chinese government officials accountable, in the legal sense, 
for these violations is to continue to encourage them.
    And I do want to go back to the point about Mr. Smith's 
question about sinicization, because we talked about that with 
respect to ethnic minority and religious communities forcing a 
kind of political loyalty. But let's not forget that the 
Chinese Communist Party is carrying out similar campaigns and 
surveillance of ordinary people all across the mainland to 
create a model citizen. And let's be clear that if we saw 
violations of this scope and scale taking place in other parts 
of the world, I think we would be well underway to a kind of 
independent international investigation that would lead to some 
kind of accountability proceedings. And it is high time to move 
in that direction. Thanks.
    Chair McGovern. You know, as I mentioned in my opening 
statement, I'm really concerned about the reports of mass labor 
transfers and training programs in Tibet. What do you think 
about the accuracy of these reports? Anybody?
    Ms. Richardson. I think the preliminary information that we 
have is a bit different about the number of people who have 
actually been registered versus trained, what that training is 
like, what it means. But I think the underlying pathologies are 
no less serious. I think the agenda in Tibet is to move 
enormous numbers of people out of farming, off the plateau, 
into physical communities and kinds of work that make them 
easily legible to the state, that make their political and 
religious views and activities known, and to essentially leach 
away a distinct identity and way of life and to offer only one 
that involves being subordinate to the party's political 
demands.
    Chair McGovern. Anybody else have any final words before we 
close the hearing?
    Mr. Dorjee. I just would like to thank Chairman McGovern, 
and Cochair Rubio, and the entire Commission for your 
consistent support of the Tibetan people. The Tibetan people, 
both inside Tibet and outside, are very much aware of your 
commitment and dedication. And we truly appreciate the fact 
that you champion this cause.
    Chair McGovern. Thank you. Let me just close by saying I 
appreciate all the testimony. And I appreciate the 
participation of my colleagues. I joked at the beginning of the 
hearing that in the current political climate here, it's hard 
to get Democrats and Republicans to agree on what to have for 
lunch, right? But this is an issue that has brought us all 
together. Speaker Pelosi reminds us all the time that if we 
don't speak out against human rights abuses in China, then we 
have no moral authority to speak about human rights abuses 
anywhere else in the world. It is so glaring, the abuses that 
are going on, so clear.
    And what is really tragic is that it just seems like it's 
getting worse. And working with Congressman Smith and others we 
have probably legislated more on human rights issues in China, 
and on Tibet, than at any other time in our history. And we're 
going to continue to do that. We're going to continue to call 
attention to what's happening, because I think the Chinese 
government is under this illusion that they can wear us all 
down. That the attention span of many of us is about 48 hours, 
and then we're on to another topic, that somehow this will just 
go away. Or when the Dalai Lama is no longer with us, then we 
will no longer care about Tibet.
    That is a huge miscalculation. None of us are going 
anywhere. We are going to continue to focus on this issue. And, 
for the record, Democrats and Republicans, liberals and 
conservatives, have high regard for the Dalai Lama. We revere 
him. He's a man of peace and justice and nonviolence. Why, as 
Senator King asked in the beginning, why a country as big and 
as powerful as China is paranoid and frightened of this 
peaceful monk is beyond comprehension. But they are. And they 
continue to be determined to try to wipe out the Tibetan 
culture, the language, the traditions. And the Tibetan people 
have suffered greatly. And I hope the people who are still 
there, who are under great oppression, know that we're going to 
continue to be their voice.
    So this was a very powerful hearing. And I don't know--I 
just saw Zeekgyab Rinpoche come on the screen. I don't know if 
you have anything that you want to say . . . or have you said 
everything?
    Zeekgyab Rinpoche. Thank you so much.
    Chair McGovern. Well, thank you. So everybody, thank you. 
This brings this hearing to a close. We appreciate your 
responsiveness to the questions. And please everybody, be safe. 
The hearing comes to a close. Thank you.
    [Whereupon, at 11:52 a.m., the hearing was concluded.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Zeekgyab Rinpoche

    Chairman McGovern, Chairman Rubio, respected members of the 
Commission. Thank you for organizing this very important hearing and 
the opportunity to speak today.
    I am the abbot of Tashi Lhunpo Monastery. My monastery was founded 
by the First Dalai Lama, and for 500 years, has served as the seat of 
the Panchen Lama, one of the most important figures in Tibetan 
Buddhism, with spiritual authority second only to the Dalai Lama. The 
Panchen Lama is of immense significance to my monastery, to the six 
million Tibetans in Tibet, and to the millions of Buddhists worldwide, 
including here in the United States.
    In 1995, His Holiness the Dalai Lama recognized a six-year-old boy, 
Gedhun Choekyi Nyima as the 11th Panchen Lama. Three days later, the 
Chinese government abducted this boy, making him the world's youngest 
prisoner at the time. Also abducted along with him were members of his 
family and the leader of his search party, Jhadrel Rinpoche.
    Twenty-five years have passed since the Panchen Lama's abduction. 
Despite persistent appeals from concerned governments, UN bodies, 
rights groups, and sympathetic individuals across the world, the 
Chinese government, to this day, refuses to provide verifiable 
information about the Panchen Lama's whereabouts, his well-being, or 
evidence to prove that he is even alive.
    Instead, China has propped up another boy as the Panchen Lama, a 
false reincarnation whom we Tibetan Buddhists do not accept. This has 
done incalculable damage to our precious 500-year old religious 
lineage. China's glaring lack of accountability over the kidnapping of 
such an important religious figure--and a child at that--is an 
outrageous and unprincipled act. This violates the very basic rights 
that Tibetan Buddhists should get to choose our own spiritual leaders.
    It raises the question: Why did the Chinese government kidnap a 
six-year-old boy--the genuine reincarnate--and prop up a false Panchen 
Lama? A glance at the deep historical and spiritual relationship 
between the lineages of the Dalai Lama and the Panchen Lama reveals the 
answer. In Tibetan history, the unique relationship of the Dalai Lama 
and the Panchen Lama is well known. The popular saying is: As the Sun 
and the Moon are in the sky, so are the Dalai Lama and the Panchen Lama 
on earth. Since the early 17th century, the Panchen Lamas and the Dalai 
Lamas have played key roles in recognizing and teaching each other's 
reincarnations. In the past century, the 9th Panchen Lama helped 
identify His Holiness the 14th Dalai Lama, who in turn recognized the 
10th and 11th Panchen Lamas.
    Given this traditional practice, the Chinese government will surely 
use its false Panchen Lama to interfere in the selection of the next 
Dalai Lama and other high reincarnates. Therefore, all of us--Tibetan 
Buddhists the world over and supporters of religious freedom--should be 
deeply concerned.
    It is clear that the Chinese policy over Tibet is a deliberate 
attempt to remove from the face of the earth our racial and cultural 
identity. This is clearly seen in the way the Chinese government 
interferes and intervenes in the functioning of the monastic education 
system by imposing restrictions on our monks and nuns. Even in schools 
we see this malign design to wipe out our unique identity in the form 
of restructuring the curriculum and banning the learning of the Tibetan 
language. At the environmental level, there is utter disregard and 
irreverence for the life and ecology of Tibet. In short, there is 
continuous and systematic destruction of culture, religion, language, 
and environment in Tibet.
    Therefore, to safeguard the right of Tibetan Buddhists worldwide to 
choose our spiritual leaders without interference by the Chinese 
government, and to secure the release of the Panchen Lama, I 
respectfully offer three suggestions to this commission:
    First, on the crucial issue of the selection of the next Dalai 
Lama, the entire matter should be left to the total discretion and 
vision of the Dalai Lama without any interference and imposition from 
the CCP. Please do devise a coordinated strategy in unity with allies 
and present a strong and collective stance to challenge the CCP's 
authoritarian regime's malevolent motivations on this matter.
    Second, please work toward establishing a similar contact group 
with the many Tibet parliamentary support groups and caucuses that 
exist around the world. These contact groups could facilitate the 
sharing of model resolutions and legislation, such as the Tibet Policy 
and Support Act, among its members.
    Third, I call upon sympathetic governments, NGOs, and Tibet support 
groups to investigate the whereabouts of the Panchen Lama and those 
abducted with him so that we have clear and accurate information on 
their whereabouts, including current photos of the Panchen Lama, his 
family members and Jhadrel Rinpoche. We cannot simply keep urging 
transparency from China, which has shown no intention of being 
transparent on this, and other human rights issues.
    Lastly, I request the U.S. Senate to approve the Tibet Policy and 
Support Act. If passed this legislation will bring much needed hope to 
the Tibetan people as they struggle to survive during this dark period 
of persecution and illegal occupation by China.
    Thank you for the honor of testifying before you. And thank you for 
your ongoing support of human rights and religious freedom for the 
Tibetan people.
                                 ______
                                 

                  Prepared Statement of Matteo Mecacci

    Congressman McGovern, Senator Rubio, and members of the Commission, 
thank you for inviting me to testify today.
    Tomorrow is the 70th anniversary of the establishment of the 
People's Republic of China, and while every nation is entitled to 
celebrate its founding, no government should lose sight of the fact 
that its first and main responsibility is to serve and protect all its 
citizens by respecting their fundamental rights. The condition of the 
Tibetan people in China is a reminder of how much work still needs to 
be done to achieve that goal.
         repression of fundamental rights and freedoms in tibet
    Since the People's Republic of China invaded Tibet almost seventy 
years ago, it has kept a very tight control on all aspects of Tibetan 
life. The deterioration of human rights in Tibet today continues to be 
very serious. Over the last four years, Freedom House has consistently 
ranked Tibet as the second least free region of the world, only behind 
Syria.
    Tibetans can be persecuted for their beliefs. China has adopted an 
official plan to ``Sinicize'' Tibetan Buddhism--to bring it under the 
control of the Chinese Communist Party.
    To ensure government surveillance of Tibetan monks and nuns, police 
stations have even been opened inside or next to monasteries. Tibetans 
can be arrested simply for owning photographs of the Dalai Lama or 
celebrating his birthday, or for watching videos of his teachings.
    China is also trying to control the Tibetan reincarnation system. 
After abducting the Panchen Lama and his family when he was just six 
years old in 1995, the Chinese Communist Party now plans to select the 
next Dalai Lama--an absurd claim that the international community needs 
to challenge decisively. UN bodies have persistently called for access 
to the ``disappeared'' Panchen Lama, including with a formal 
communication issued last August, but the Chinese government continues 
to refuse it.
                  tibet work forum and china's policy
    At the end of August, Xi Jinping presided over the seventh Tibet 
Work Forum held in Beijing. The meeting's proceedings indicate that the 
Chinese leadership will continue its policy of control and assimilation 
in Tibet. Xi presented a ``strategy of governing Tibet in the new era'' 
that includes ``Sinicization'' of Tibetan Buddhism and improving the 
ability of the CCP's organizations and members at all levels ``to deal 
with major struggles and prevent major risks.'' Worryingly, Xi called 
for the patriotic re-education of the younger generation of Tibetans 
and asked the officials to look into ``strengthening ideological and 
political education in schools, put the spirit of patriotism throughout 
the entire process of school education at all levels and types, and 
plant the seeds of loving China in the depths of the hearts of every 
teenager.''
    Subsequently, this month several senior Chinese leaders have been 
visiting Tibetan areas to ask Tibetans to study and implement the 
spirit of Xi Jinping's ``important speech at the Seventh Central Tibet 
Work Forum.''
                new evidence of coercive labor in tibet
          and parallel with chen quanguo in tibet and xinjiang
    In a report released on Sept. 22, 2020, scholar Adrian Zenz 
documented a large-scale program established in the Tibet Autonomous 
Region that in the first seven months of 2020 pushed more than half a 
million rural Tibetans off their land and into military-style training 
centers. These are staggering numbers. After their coerced training, at 
least 50,000 of them were sent to other areas of Tibet and China and 
pushed into low-wage factory and construction work. The report 
highlights the Chinese authorities' attempts to eliminate Tibetans' 
traditional lifestyle, their unique identity, and their way of 
thinking. It also highlights disturbing similarities with the system of 
coercive vocational training and labor transfer established in Xinjiang 
over the last few years.
    In the wake of this new report, more than 60 parliamentarians from 
16 countries have issued a statement demanding urgent action to 
confront such actions; ``We call upon our governments to take immediate 
action to condemn these atrocities and to prevent further human rights 
abuses,'' say the MPs, who are members of the Inter-Parliamentary 
Alliance on China, which works to reform how democratic countries deal 
with China.
                u.s. policy and legislative initiatives
    As we discuss how the United States and the international community 
should shape and adjust its Tibet policy, it is worth looking at some 
of the recent initiatives that have been undertaken by this body.
    Under the leadership of Chairmen McGovern and Rubio, at the end of 
2018 the U.S. Congress passed the Reciprocal Access to Tibet Act, the 
first legislation to apply the principle of reciprocity in U.S.-China 
relations, namely, to challenge Beijing's policies on access to Tibet. 
As documented by the State Department in its latest report under the 
Reciprocal Access to Tibet Act, the Chinese government continues to 
keep Tibet under lockdown, both limiting the freedom of movement of
    Tibetans and blocking the free access of foreigners. As a result of 
this legislation, last July, the State Department, for the first time, 
banned from the United States the Chinese officials responsible for 
blocking Americans' access to Tibet.
    This call for reciprocal access to Tibet has also been endorsed by 
MPs throughout the world in an op-ed published last June and signed by 
over 50 European MPs, following a report by my organization on the lack 
of access to Tibet for EU citizens, and the recent appeal of the 
International Parliamentary Alliance on China.
    There is growing awareness in European capitals and in Asia of the 
challenge posed by the authoritarian model of development promoted by 
Beijing. Calling for reciprocity not only on economic and financial 
issues, but also for civil liberties and human rights, is an effective 
way to challenge China's narrative, but it should be done in a 
strategic, well-coordinated, and international fashion, which is still 
not the case.
    Last January, the House of Representatives overwhelmingly passed 
the Tibetan Policy and Support Act. This bipartisan legislation--again 
introduced by Chairmen McGovern and Rubio--is now before the Senate, 
and we call on Senators to pass it before the end of the year. Tibetan 
Americans, ICT members, and Tibet supporters have sent several thousand 
petitions to Senate offices urging support for the TPSA. In the past 
several months, we have been encouraged by our interactions with Senate 
offices and believe that efforts are on to have the TPSA passed at the 
earliest. This will be a powerful message of hope to the Tibetan people 
who are otherwise faced with daily oppressive policies by the Chinese 
authorities. The TPSA will strengthen U.S. policy on Tibet in several 
areas, recognizing the strategic importance of the Tibetan plateau for 
U.S. interests in the region.
    The legislation affirms that it is only up to Tibetan Buddhists to 
select the next Dalai Lama, without any government interference. It 
acknowledges the fragility of Tibet's environment, the key role 
Tibetans play in its preservation, and that the rivers and water 
resources originating from its glaciers that serve over a billion 
people, including in India and Southeast Asia, are of international 
concern and should therefore be protected by the international 
community, demanding full transparency from Beijing.
    TPSA also expands the mandate of the Special Coordinator for 
Tibetan Issues, a senior position at the State Department, which 
unfortunately has never been appointed during the last four years. The 
absence of the Special Coordinator could be one reason why there has 
not been much movement on the Tibetan dialogue process from the 
Administration's side. With only a few months left in the current term 
of this Administration to do anything meaningful, the next
    Administration, whether it is Republican or Democratic, should 
quickly appoint the Special Coordinator for Tibetan issues at the 
undersecretary level, not at a lower level position, because doing that 
will send the wrong political message--of diminished U.S. support for 
Tibet--both to the Chinese government and to the Tibetan people. While 
talking about a post-election Administration, we have launched a Tibet 
2020 campaign so that the presidential candidates of both parties are 
apprised of the American people's strong desire for Tibet to be a high 
priority. We look forward to working with the White House and Congress 
in our common objective of supporting the people of Tibet to regain 
their rights and dignity.
                                 ______
                                 

                  Prepared Statement of Tenzin Dorjee

    It is my great honor to testify today on behalf of the Tibetan 
people. Over the course of seven decades, the Chinese government has 
executed a range of colonial policies aimed at eradicating Tibetan 
language, culture, and religion. The Jamestown Foundation report last 
week about the extensive labor camps in Tibet is the most recent 
example.
    But the threat that the Chinese government poses to freedom and 
human rights goes beyond Tibet, Xinjiang, and Hong Kong. China's 
surveillance and influence operations have become transnational in 
nature and global in implications. Beijing's actions seek to undermine 
the fundamental rights of those living in the United States, as 
demonstrated by the arrest of the Chinese agent who infiltrated the 
NYPD to spy on the Tibetan community.
    China's repression without borders uses a broad set of tools and 
tactics guided by sophisticated strategies. Chief among these 
strategies is the weaponization of access --access to markets, access 
to family, access to funding, access to research sites. By controlling 
access, China has managed to constrain the free speech rights of 
American academics, corporations and industries, from Hollywood to the 
NBA to the ivory tower.
    One strategy with particular relevance to Tibetans is the ``visa as 
bait'' strategy. Under this strategy, China weaponizes access to family 
in order to coerce exiled Tibetans into silence and political 
impotence. Most Tibetans in exile have families back home. Many have 
aging parents. So it is understandable that many naturalized Americans 
of Tibetan origin want to visit their family.
    But here's the problem. The Chinese government has a visa policy 
that is based on blatant racial discrimination against Tibetan 
Americans. Let me share what a typical visa application process looks 
like if you're a Tibetan American. You are at the Chinese consulate in 
New York or DC. There is a visa application window where everyone 
checks in, but you can't go to that window because you're Tibetan. 
You're taken to a separate area where a liaison officer makes you write 
down a detailed personal statement. You have to share your life 
history, name all the organizations you've been affiliated with, and 
state whether you've ever participated in a Tibet protest. You also 
have to provide the names and IDs of your relatives in Tibet.
    Now the Chinese government knows who you are, who your relatives 
are, and where they live. The situation is ripe for long-distance 
relational repression. Your relatives are the hostage, you're the 
target. Each piece of information you provide is a data point for the 
Consulate; each data point is an invisible shackle that restrains your 
freedom of expression.
    The Consulate starts processing your application. It takes several 
months, sometimes a full year. In the meantime, they hold on to your 
passport. This puts you in limbo--you cannot travel to any other 
country during this entire period. This practice violates the 
fundamental rights of American citizens, because it obstructs freedom 
of movement.
    One day, the liaison officer calls you in for a more serious 
interview--it's more like an interrogation. You hear the same questions 
again. ``Have you ever participated in pro-Tibet activities?'' When you 
say no, he shows you a photo from the past--it's a photo of you at a 
rally outside the Chinese consulate, or it could be a photo of you 
attending a teaching by the Dalai Lama. End of story. You have no visa; 
Beijing has your data.
    In one disturbing case, the liaison officer knew things he 
shouldn't have known about the applicant's private life. He knew that 
the visa applicant had a dog, he knew what breed the dog was, he even 
knew the dog's name. His intention was clear: he wanted the applicant 
to know that they were under watch.
    This insidious campaign to surveil and control Tibetans in exile 
has been bolstered by the growing dominance of WeChat among diaspora 
populations. Now all social media apps have their problems, sure, but 
WeChat is no ordinary app. While other apps are largely platforms for 
self-expression, WeChat is a platform of self-censorship and state 
surveillance.
    Some have celebrated the app as ``China's bridge to the world'' and 
a ``lifeline'' for diaspora populations. But in reality, WeChat is no 
bridge; it's a panopticon. Every hour you spend in the app is an hour 
spent in a ``no free speech zone.''
    Nor is WeChat a ``lifeline'' for diaspora populations. The app is a 
rope that binds the diaspora to a command center in Beijing. This 
platform powers the apparatus of transnational repression that Beijing 
employs to silence its exile-based dissidents, intimidate overseas 
activists, and surveil protesters.
    And yet, against all odds, Tibetans around the world continue to 
resist China's colonial rule. In Tibet, the dedication of the people 
endures despite the repression. Between 2009 and 2019, more than 156 
Tibetans self-immolated in Tibet to protest Chinese rule, and 10 more 
have done the same in exile. Tibetans are also using other tactics of 
resistance. Language rights advocate Tashi Wangchuk and nomad leader 
Aya Sengdra are just two examples of people who have engaged in local 
or regional campaigns to defend language rights, protect the 
environment, or to carve out cultural space.
    In the period 2015-2019, my colleagues have documented 71 different 
kinds of strategic interventions or campaigns in Tibet which involve an 
individual or group engaging in sustained campaign activity or 
strategic nonviolent action. The goals of many of these campaigns and 
actions have been political freedom along with language rights, 
religious freedom, and issues related to the land and environment.
                                 ______
                                 

                Prepared Statement of Sophie Richardson

    China's education policy in the Tibet Autonomous Region (TAR) is 
significantly reducing the access of ethnic Tibetans to education in 
their mother tongue. The government policy, though called ``bilingual 
education,'' is in practice leading to the gradual replacement of 
Tibetan by Chinese as the medium of instruction in primary schools 
throughout the region, except for classes studying Tibetan as a 
language. Since the 1960s, Chinese has been the language of instruction 
in nearly all middle and high schools in the TAR, where just under half 
of Tibetans in China live, but new educational practices introduced by 
the government in the TAR are now leading more primary schools and even 
kindergartens to use Chinese as the teaching language for Tibetan 
students.
    The trend toward increased use of Chinese in primary schools in 
Tibetan urban areas has been noted for several years, but as detailed 
below, there are indications that it is now becoming the norm there and 
is spreading to rural areas as well. In interviews that Human Rights 
Watch conducted in September 2019, parents with children at rural 
primary schools in six different townships in northern TAR said that a 
Chinese-medium teaching system had been introduced in their local 
primary schools the previous March. There have been no public 
announcements of a government policy in the TAR requiring rural primary 
schools to teach their classes in Chinese, but an official working on 
educational issues in the TAR told Human Rights Watch that he expects 
the government to introduce a policy requiring all primary schools in 
the TAR to shift to Chinese-medium education.
    China formally introduced a policy of ``bilingual education'' in 
2010 for schools in all minority areas in China, an approach to 
minority education considered appropriate internationally when it 
promotes competency in both the local and the national language. The 
official position of the TAR authorities is that both Tibetan and 
Chinese languages should be ``promoted,'' leaving individual schools to 
decide which language to prioritize as the teaching medium. However, 
Human Rights Watch's research suggests that TAR authorities are using a 
strategy of cultivated ambiguity in their public statements while using 
indirect pressure to push primary schools, where an increasing number 
of ethnic Chinese teachers are teaching, to adopt Chinese-medium 
instruction at the expense of Tibetan, such as allocating increasing 
numbers of ethnic Chinese teachers who do not speak Tibetan to 
positions in Tibetan schools.
    chinese-medium instruction in primary schools and kindergartens
    There is almost no publicly available data about the medium of 
instruction currently used in primary schools or kindergartens in the 
TAR or other Tibetan areas. But Human Rights Watch's research found 
that local authorities in the TAR began preparations from about the 
year 2000 to encourage and facilitate a gradual shift to Chinese-medium 
teaching in primary schools in the region. These preparations started 
with instructions by the central authorities in Beijing that required 
local administrations throughout China to prepare to introduce 
bilingual education for communities that are not ethnic Chinese.
    What form that policy should take has varied significantly from 
province to province, but in 2001, all primary schools in urban areas 
of Tibet began to teach Tibetan pupils Chinese language from Grade 1, 
instead of Grade 3 as had been the case previously. However, there was 
no mention by officials as to which language should be used as the 
medium of instruction in Tibetan pre-schools or primary schools.
    In 2010, all provincial-level administrations throughout China 
introduced formal programs for the implementation of ``bilingual 
education.'' Chinese analysts distinguish between ``Model 1'' 
bilingualism, which emphasizes the use of the local or minority 
language in classrooms, and ``Model 2'' bilingualism, which emphasizes 
the national language, Chinese. But in its 2010 announcement on 
implementation, the TAR authorities once again did not specify whether 
Chinese or Tibetan was to be the medium of instruction in primary 
schools and have continued to use the term ``bilingual education'' 
ambiguously, without specifying its meaning. In public reports they 
imply that the only requirement is extra classes for Tibetans to learn 
Chinese and that individual schools can choose the medium of 
instruction. In practice, however, there appears to be considerable 
pressure to shift to Chinese and Model 2.
    This pressure is strongly reflected in official Chinese media 
reports on the benefits of ``bilingual education'' in the TAR. In early 
2015, a report by China's official news agency, Xinhua, said that 
Chinese-medium instruction had already been introduced, not just into 
secondary schools, as was well known, but also into urban primary 
schools in the TAR: ``Different from the model widely implemented in 
pastoral regions, elementary schools in each of Tibet's prefectures 
(and municipalities), some junior middle schools, senior middle 
schools, and Tibet classes in the interior adopt a teaching model that 
uses Chinese as the teaching language with Tibetan as an addition.'' In 
January 2016, an article on Tibetan schools by China's state-run Global 
Times confirmed that ``increasingly schools, especially in urban areas, 
are using Putonghua [standard Chinese] as the primary language of 
instruction, with Tibetan being used only in classes where the Tibetan 
language is the topic of the class, if it is taught at all.''
    Then, in June 2016, the Lhasa Education Bureau announced that 
Chinese was being used as the medium of instruction to teach 
mathematics in a majority of primary schools in the counties around 
Lhasa, including rural areas outside the region's capital city. This 
was the first known direct admission by the government of a shift to 
Chinese-medium teaching in some classes within rural TAR primary 
schools.
    Outside the TAR, the Chinese authorities have already imposed 
Chinese-medium instruction in primary schools in at least one Tibetan 
area. In the Golok Tibetan Autonomous Prefecture, the prefectural 
government ordered primary schools to introduce primarily Chinese-
medium instruction in the 2019-2020 school year. A similar plan to 
introduce Chinese-medium education was reported from Tsolho prefecture 
in Qinghai province in April 2017. Teaching in all schools in Yushu 
Tibetan Autonomous Prefecture in Qinghai is already conducted in 
Chinese. There are unconfirmed reports that similar policies will soon 
be introduced in other Tibetan prefectures in Qinghai.
    Governmental pressure on Tibetan schools to use Chinese is also 
evident in the pre-school sector. According to China's official media, 
the TAR government plans to ensure that by 2020, 80 percent of children 
in the TAR attend two to three years of kindergarten before entering 
primary school. \1\ In 2016, TAR authorities announced that all 
kindergarten programs have to become ``bilingual.'' According to an 
academic paper published in Xizang Jiaoyu (``Tibetan Education''), an 
educational journal in the TAR, ``bilingual education'' was ``basically 
universalized at preschool level'' by 2017, which means that all of the 
81,000 Tibetan children in pre-schools and kindergartens in the TAR 
above the age of 3 are already experiencing ``bilingual education.''
---------------------------------------------------------------------------
    \1\ ``250 bilingual kindergartens to be built in Tibet region,'' 
Global Times, February 26, 2016, http://www.globaltimes.cn/content/
970539.shtml (accessed December 29, 2019).
---------------------------------------------------------------------------
    In its January 2016 article on the Tibetan language, the Global 
Times explicitly linked the critical decline in the use of the Tibetan 
language to the decrease in the use of Tibetan in schools: 
``urbanization and the increasing amount of the school day spent 
speaking Putonghua has left the Tibetan language in a precarious 
situation.'' It added that ``many Tibetan parents have found that their 
kids are not learning how to speak their mother-tongue.''
    Human Rights Watch found that among ordinary Tibetans, there is 
widespread concern about the increasing loss of fluency in Tibetan 
among the younger generation as a result of changing school policies 
and other factors. As a former part-time teacher from Lhasa told Human 
Rights Watch:
    In primary school, the Tibetan teachers are very united and have a 
strong urgency to teach Tibetan, but the biggest problem is that they 
lack method and materials, and a lot of the kids in a way don't like 
Tibetan because they think it will be quite useless . . . [Older] 
people always complain about the lack of Tibetan, [and] the fact that 
their grandkids cannot speak proper Tibetan at home.
   pressures on tibetan schools to switch to chinese-medium teaching
    While public policy statements by the TAR authorities remain 
ambiguous, there are increasing signs that they are using a range of 
indirect mechanisms to pressure schools in the TAR to switch to 
Chinese-medium teaching. These measures require Tibetan schools to 
increase Tibetan children's immersion in Chinese culture and language. 
They include ``mixed classes,'' ``concentrated schooling,'' the 
transfer of large numbers of Chinese teachers to Tibetan schools, 
sending Tibetan teachers for training to provinces where Chinese is the 
dominant language, and requiring all Tibetan teachers to be fluent in 
Chinese. The measures have indirectly increased pressure on schools in 
the TAR to reduce the availability of mother-tongue education for 
Tibetan children over the last decade and are accelerating the gradual 
shift to Chinese-medium teaching in TAR primary schools.
    The number of non-Tibetan-speaking teachers working in Tibetan 
schools tripled between 1988 and 2005, and under the current program, 
30,000 will be sent to Tibet and the Xinjiang region, in the northwest, 
by 2020. None of the non-Tibetan teachers are required to know Tibetan 
and they presumably teach in Chinese. While many of them teach in 
middle schools and high schools in the TAR, there has been an impact 
even at the pre-school level, especially in urban areas: according to a 
Chinese study in 2017, 30 percent of teachers in one Lhasa county did 
not know Tibetan.
    In addition, from at least 2016, hundreds of Tibetan teachers have 
been sent for further training in other provinces, and since 2017, all 
Tibetan teachers have been required to know Chinese. As early as 2003 
the number of primary school teachers using Chinese for instruction in 
the TAR had increased threefold over the previous 12 years, from 1,698 
in 1991--then 20 percent of total teachers--to 4,228 or 33 percent of 
total teachers by 2003. We have not been able to find data showing the 
change since then.
    Another measure that has contributed to the switch to Chinese-
medium instruction has been the creation of ``mixed classes,'' the 
inclusion of non-Tibetan pupils in classes with Tibetan ones. Another 
measure, known as ``concentrated schooling,'' involves closing local 
schools in rural areas and consolidating them in a nearby town, where 
rural students usually have to board. While this brings benefits in 
terms of facilities and standards, it also reduces children's contact 
with their family and with a Tibetan-speaking environment. These 
measures all improve Tibetan children's exposure to Chinese but can 
weaken children's access to and familiarity with their own language.
    The imposition of teaching practices that encourage the switch to 
Chinese-medium instruction in the TAR is the result of increasing moves 
by the ruling Chinese Communist Party (CCP or the ``Party'') since 2014 
to shift away from encouragement of cultural diversity, which had been 
the official policy toward minorities since the early 1980s, including 
respect for the distinctive cultures and languages of minorities. As 
detailed in section III of this report, the new policy aims to increase 
the assimilation of minorities in China and requires officials to 
prioritize ``ethnic mingling'' (minzu jiaorong) of China's 
nationalities and ``identification'' (rentong) by the minority 
nationalities with ``Chinese culture'' (Zhonghua wenhua). The 
government contends that these measures are necessary to achieve not 
just economic development for minorities but also ``nationality unity'' 
and ``national stability'' within China.
    Global evidence shows that children's educational development is 
adversely affected, particularly in the case of minority and indigenous 
children, when they are not taught in their mother tongue in the early 
years of education. Mother-tongue policy experts agree that children 
who have grasped foundational skills and literacy in their own mother 
tongue are better placed to learn in a second or foreign language.
    Human Rights Watch supports policies that promote genuine bilingual 
education, in particular through the use of mother-tongue instruction 
in the early years of education and through curricula sensitive to 
indigenous and ethnic minority customs and practices. China's policies 
for Tibetan children in the TAR, however, show decreasing respect for 
their right to use their mother tongue or learn about and freely 
express Tibetan cultural identity and values in schools. Rather, they 
embody an approach to schools and schoolchildren that appears to be 
eroding the Tibetan language skills of children and forcing them to 
consume political ideology and ideas contrary to those of their parents 
and community.
       justifications for shifting to chinese-medium instruction
    Chinese officials usually justify the switch to Chinese-medium 
instruction in Tibetan schools by arguing that improved knowledge of 
Chinese will help Tibetans gain employment in later life, a claim that 
is widely acknowledged in Tibet. However, the justification for 
imposing Chinese-language teaching in Tibetan kindergartens is quite 
different, at least according to a 2014 report by the Chinese scholar 
Yao Jijun, who said the aim of bilingual education at the pre-school 
level is to ``better integrate the Chinese language'' into Tibetan 
kindergarten children as ``a means of eliminating elements of 
instability in Tibetan regions'' (``instability'' is a term used in 
China to refer to political unrest). According to Yao, ``Tibet's 
stability'' depends on the full development of ``bilingual education'' 
at the kindergarten level.
    Concern with eliminating the risk of future political dissent or 
unrest is also explicit in Party justifications for its ``ethnic 
mingling'' and ``cultural identification'' policies, which were 
endorsed by the central leadership as the new direction of minority 
policy in 2014. Children of minorities in kindergartens and primary 
schools undergo intensive political indoctrination that asserts the 
unquestioned benefits of the Party's policies of ethnic mingling and 
its other political objectives. The children have little access to 
alternative ideas, since the media reinforce the necessity of 
prioritizing the use of Chinese language in education, with little or 
no discussion of educational alternatives.
    There are no signs of significant popular involvement in the 
decision-making process that leads to these policies, particularly when 
they involve the minority regions; the policies are designed and 
imposed by the Communist Party.
                      school closures and protests
    Human Rights Watch has reported on protests in a number of Tibetan 
areas since 2010 against earlier attempts to introduce Chinese-medium 
education in Tibetan schools. It has also reported on the closure of 
privately run schools in Tibetan areas and has received reports that 
three monastery-run schools were closed in Tibetan parts of Sichuan 
province in or around June 2018. It notes also an unconfirmed report of 
the forced closure of a private kindergarten in the TAR in 2008 for 
giving priority to Tibetan language teaching.
    Tibetans in China already suffer extensive restrictions on rights 
to free speech and opinion, peaceful assembly, movement, and religion 
that are more severe than in ethnic Chinese-majority areas of China. 
Chinese laws preclude them from open discussion of their history, allow 
them little say in policymaking in their own areas, and place extreme 
restrictions on their religious practice, access to information, and 
foreign travel.
    In January 2016, a Tibetan campaigner on language rights, Tashi 
Wangchuk, was detained by the authorities and charged with 
``jeopardizing state security'' after giving interviews to the New York 
Times stating that there was no longer any provision for Tibetan to be 
taught as a language, let alone Tibetan-medium education, in Yushu 
Tibetan Autonomous Prefecture in Qinghai. In May 2018, a court 
sentenced him to five years in prison for ``incitement to split the 
country'' by ``distorting the state of education and cultural 
development in Tibetan areas, slandering the government by saying it 
restricts the development of minority cultures and eliminates minority 
language and culture, undermining ethnic unity and social stability in 
Tibetan areas, and national unity,'' according to court documents. \2\
---------------------------------------------------------------------------
    \2\ ``Translated court documents expose China's sham prosecution of 
Tibetan language rights advocate Tashi Wangchuk, raise fears about use 
of torture,'' Save Tibet, August 29, 2018, https://www.savetibet.org/
translated-court-documents-expose-chinas-sham-prosecution-of-tibetan-
language-rights-advocate-tashi-wangchuk-raise-fears-about-use-of-
torture/ (accessed December 29, 2019).
---------------------------------------------------------------------------
    Despite the risks of speaking out, Tibetan intellectuals continue 
to express concerns about China's education policies in Tibetan areas. 
In response to the April 2017 announcement of a plan by the Party 
committee in Tsolho Prefecture in Qinghai to reduce or replace Tibetan-
medium education in local schools, leading Tibetan scholar and lama 
Alak Dorzhi posted this comment online: ``In recent years in Tibetan 
areas, self-deluding and arbitrary policy documents in violation of the 
national constitution and nationality laws, which do not fully respect 
the Party's nationality policies or consult expert or public opinion, 
have upset the public time and again. When this happens, the 
authorities resort to the use of force, those in authority go after the 
public and use the convenient brutality of stability maintenance 
measures to try and solve the problem. . . .''
    Alak Dorzhi added that this issue ``has not been considered 
carefully enough by the authorities.'' Despite his cautious tone, his 
comment was quickly deleted from the internet, signaling the increasing 
limitations on public debate among Tibetans about language policies in 
their schools.
                     domestic and international law
    The transition to Chinese-medium instruction in Tibetan primary 
schools is in tension with if not contradictory to some Chinese laws 
and policies. This includes the 2001 Law on Regional National Autonomy, 
which states that minority schools ``should, if possible, use textbooks 
printed in their own languages, and lessons should be taught in those 
languages.'' \3\ The law specifies that minority schools should teach 
Chinese language only from the early stages of primary education and 
does not direct that Chinese language be the language of instruction or 
even taught in kindergartens for minority children.
---------------------------------------------------------------------------
    \3\ Law of the People's Republic of China on Regional National 
Autonomy, art. 37, http://www.china.org.cn/english/government/
207138.htm (accessed December 29, 2019).
---------------------------------------------------------------------------
    International human rights law obligates China to provide Tibetan-
language instruction to the ethnic Tibetan population. The United 
Nations Convention on the Rights of the Child (UNCRC), which China 
ratified in 1992, states that ``a child belonging to a . . . minority . 
. . shall not be denied the right . . . to use his or her own 
language.'' \4\ The International Covenant on Civil and Political 
Rights (ICCPR), which China has signed but not ratified, contains 
similar language. \5\ China also supported the UN Declaration on the 
Rights of Indigenous Peoples, which both endorses rights to indigenous 
language education and the right of indigenous people to control their 
educational systems and institutions. \6\
---------------------------------------------------------------------------
    \4\ Convention on the Rights of the Child (CRC), adopted November 
20, 1989, G.A. Res. 44/25, annex, 44 U.N. GAOR Supp. (No. 49) at 167, 
U.N. Doc. A/44/49 (1989), entered into force September 2, 1990, art. 
30.
    \5\ ICCPR art. 27.
    \6\ UN General Assembly, United Nations Declaration on the Rights 
of Indigenous Peoples: resolution/adopted by the General Assembly, 2 
October 2007, A/RES/61/295, art. 14.
---------------------------------------------------------------------------
    Three UN human rights expert committees have repeatedly expressed 
concern at China's handling of mother-tongue instruction and have 
called on the government to ensure that Tibetan children are able to 
learn in their own language and to protect those who advocate for 
mother-tongue education. In 1996, the Committee on the Rights of the 
Child, the international expert body that monitors state compliance 
with the Convention on the Rights of the Child, called on Chinese 
authorities ``to ensure that children in the Tibet Autonomous Region 
and other minority areas are guaranteed full opportunities to develop 
knowledge about their own language and culture as well as to learn the 
Chinese language.'' \7\ In a subsequent statement in 2013, the 
committee called on the government to ``effectively implement the 
bilingual language policy to ensure use and promotion of ethnic 
minority languages and ensure participation by ethnic minorities, 
including Tibetan and Uighur children . . . in the decision-making 
process of the education system.'' \8\
---------------------------------------------------------------------------
    \7\ UN Committee on the Rights of the Child, ``Concluding 
observations of the Committee on the Rights of the Child: China,'' CRC/
C/15/Add.56, para. 40, June 17, 1996, https://tbinternet.ohchr.org/
_layouts/treatybodyexternal/Download.aspx?symbolno=CRC%2fC%2f15%2f
Add.56&Lang=en (accessed December 29, 2019).
    \8\ UN Committee on the Rights of the Child, ``Concluding 
observations on the combined third and fourth period reports of China, 
adopted by the Committee at its sixty-fourth session (16 September-4 
October 2013), CRC/C/CHN/CO/3-4, para. 76(c), October 29, 2013, https:/
/tbinternet.ohchr.org/_layouts/treatybodyexternal/
Download.aspx?symbolno=CRC/C/CHN/CO/3-4&Lang=En (accessed December 29, 
2019).
---------------------------------------------------------------------------
    In 2014, the UN Committee on Economic, Social and Cultural Rights 
(CESCR) expressed concern that ethnic minorities in China continue to 
face severe restrictions in the realization of their right to 
participate in cultural life, including the right to use and teach 
minority languages. The committee specifically noted the restrictions 
faced by Tibetans and Uighurs, ``in particular regarding the 
restriction of education in the Tibetan and Uighur languages.'' The 
committee called on China to ``ensure the use and practice of their 
language and culture.'' \9\
---------------------------------------------------------------------------
    \9\ UN Committee on Economic, Social and Cultural Rights, 
Concluding observations on the second periodic report of China, 
including Hong Kong, China, and Macao, China, June 13, 2014, E/C.12/
CHN/CO/2, para. 36.
---------------------------------------------------------------------------
    China has failed to comply with several key requirements of the 
Convention on the Rights of the Child and the recommendations of its 
committee. Instances include not providing adequate numbers of teachers 
trained to carry out bilingual education and enough textbooks in 
Tibetan, together with culturally appropriate teaching materials. In 
2018, the UN Committee on the Elimination of All Forms of Racial 
Discrimination (CERD) expressed concern that ``Tibetan language 
teaching in schools in the [TAR] has not been placed on an equal 
footing in law, policy and practice with Chinese, and that it has been 
significantly restricted.'' It called on the government of China to 
preserve the language by encouraging its use in education and other 
fields. \10\
---------------------------------------------------------------------------
    \10\ UN Committee on the Elimination of All Forms of Racial 
Discrimination, ``Concluding observations on the combined fourteenth to 
seventeenth periodic reports of China (including Hong Kong, China and 
Macao, China),'' CERD/C/CHN/CO/14-17, September 19, 2018, paras. 43 and 
44(b).

---------------------------------------------------------------------------
                            recommendations

To Tibet Autonomous Region Officials:

     Ensure that all Tibetan children are able to learn and use 
Tibetan in schools.
     End the forced imposition of ``ethnic mingling'' measures in 
Tibetan education such as concentrated schooling and ``mixed classes.''
     Unconditionally release Tashi Wangchuk and others prosecuted for 
peaceful opposition to state education policies.
     End the suppression of any activities or organizations calling 
for increased mother-tongue education and reverse the classification of 
such activities as ``organized crime.'' Allow all public discussion of 
education issues without threat of reprisal.
     Publish the regulations used to assess education in privately run 
kindergartens and primary and secondary schools in the TAR.
     Make it mandatory to provide clear reasons and the factual basis 
for closing such schools. Ensure that such regulations do not restrict 
or prohibit a school's ability to choose the Tibetan language as a 
medium of instruction and that inspectors do not unfairly target or 
discriminate against Tibetan-run schools in their decisions to close 
schools.

To National Officials:

     Reaffirm the established rights of minorities to mother-tongue 
instruction in schools.
     Revise the bilingual education policy to ensure the use and 
promotion of ethnic minority languages in schools, allow mother-tongue 
instruction in pre-school and primary school, and ensure voluntary and 
consensual implementation of language policy in schools, including by 
consulting with and ensuring participation of ethnic minorities during 
the revision process.
     Ensure that educational objectives and not political objectives 
hold priority in the formulation of education policy in minority areas.
     Ensure that promotion of ``nationality unity'' does not violate 
basic civil and cultural rights and does not restrict public debate 
over issues such as education and migration in nationality areas.
     End Communist Party political control over schools and their 
educational decisions.
     Ensure that all teaching and learning materials for pre-school 
and primary levels are available in ethnic minority languages and as 
feasible for secondary levels, and reflect culturally appropriate 
content.
     Ensure that teachers who are moved to teach in autonomous 
regions, including those enrolled in Aid Tibet programs, are provided 
with in-service training in the relevant and appropriate minority 
language for the region they are sent to.
     End the layoff of teachers from autonomous regions caused by the 
current ``bilingual'' policy and ensure that all minority teachers are 
provided with in-service training to match requirements for public 
school teachers.
     Comply with all outstanding recommendations on education from UN 
treaty bodies.
                                 ______
                                 

              Prepared Statement of Hon. James P. McGovern

    Good morning and welcome to today's hearing of the Congressional-
Executive Commission on China on ``The Human Rights Situation in Tibet 
and the International Response.'' While the world has rightly focused 
on the crimes against humanity, and perhaps genocide, in Xinjiang, and 
the dismantling of Hong Kong's autonomy and rule of law, the human 
rights situation in Tibet continues to deteriorate.
    More than 60 years have passed since the Dalai Lama escaped into 
exile and Tibetans in China are still struggling to exercise their 
basic human rights--to speak and teach their language, protect their 
culture, control their land and water, travel within and outside their 
country, and practice their religion as they choose. Religious freedom 
continues to be severely curtailed, including through mandatory 
political education for religious leaders and arrests of Tibetans who 
display, or even possess, a photo of the Dalai Lama. Several buildings 
at religious centers of Tibetan Buddhist learning have been demolished. 
Religious practitioners have been expelled from Larung Gar and Yachen 
Gar which used to be home to thousands of Tibetan Buddhist monks and 
nuns.
    It has now been 25 years since the 11th Panchen Lama was abducted 
and forcibly disappeared, making him one of the world's longest 
detained prisoners of conscience. We continue to call for his immediate 
and unconditional release.
    This year, ``ethnic unity'' regulations were passed that mandate 
acceptance and promotion of government ethnic and religious policy. 
There has also been a Chinese government-led effort, misleadingly 
referred to as ``bilingual education,'' instituted in minority areas 
throughout China, that mandate that schools and teachers shift to 
Mandarin as the language of instruction. These violations of linguistic 
rights in Tibet are also being implemented in Xinjiang and Inner 
Mongolia, where new limits on Mongolian-language instruction recently 
sparked large-scale demonstrations. In the name of ``poverty 
alleviation'' and environmental protection, Tibetan herders and nomads 
are under pressure to give up their traditional land rights and way of 
life, displaced according to the whims of government and business.
    Make no mistake about it, Chinese authorities are engaged in a 
systematic effort to eliminate the distinct religious, linguistic, and 
cultural identity of the Tibetan people. They are in clear violation of 
China's international obligations to protect human rights and religious 
freedom, and to respect the rights of indigenous peoples and tribal and 
ethnic minorities. Access to Tibet remains tightly controlled, with 
journalists reporting that it is as difficult to visit Tibet as North 
Korea. As a result, human rights abuses and environmental degradation 
are concealed from the world.
    In 2018, Congress passed the Reciprocal Access to Tibet Act and I 
was heartened to finally see the Trump Administration implement this 
legislation by restricting visas for Chinese officials involved in 
blocking access to Tibetan areas. However, a Special Coordinator for 
Tibetan Issues has still not been appointed, as mandated by law. Every 
other U.S. President of the last two decades has made this appointment. 
Not doing so sends a signal that the human rights of the Tibetan people 
are not a priority for the President or the U.S. Government.
    I am very concerned about recent reports that a systematic and 
large-scale training and transfer of Tibetan ``rural surplus laborers'' 
to work in factories is taking place. This program seems eerily similar 
to Uyghur forced labor abuses that have been well documented by this 
Commission.
    I am also concerned about the targeting of the Tibetan diaspora, 
including such tactics as allegedly engaging a New York police officer 
to gather intelligence for the Chinese government about the New York 
Tibetan community. I look forward to hearing more about these issues 
from our witnesses today.
    In a white paper last year, the Chinese government restated its 
claim that it has the sole authority to control the next reincarnation 
of the Dalai Lama, in clear violation of the religious freedom of the 
Tibetan Buddhist community. In light of new threats to interfere in the 
reincarnation process and the increased human rights violations, U.S. 
policy toward Tibet needs to be updated and strengthened.
    In January 2020, the House of Representatives overwhelmingly passed 
the Tibetan Policy and Support Act by a vote of 392-22. At a time when 
Democrats and Republicans can't even agree on what to have for lunch, 
this bipartisanship shows overwhelming support for the human rights of 
Tibetans. This legislation would:

     Establish as U.S. policy that the succession or reincarnation of 
Tibetan Buddhist leaders, including a future 15th Dalai Lama, is an 
exclusively religious matter that should be decided solely by the 
Tibetan Buddhist community.
     State that Chinese officials who interfere in the succession or 
reincarnation process will be subject to targeted sanctions, including 
those contained in the Global Magnitsky Act.
     Strengthen the role of the State Department Special Coordinator 
for Tibetan Issues by including a mandate to work multilaterally.
     Mandate that no new Chinese consulates should be established in 
the United States until a U.S. consulate is established in Tibet.
     Direct the State Department to begin multinational efforts to 
protect the environment and water resources of the Tibetan Plateau, and
     Support democratic governance in the Tibetan exile community.

    It is long past time for the Senate to act on this legislation. 
Frankly, I'm not sure why it has not moved forward. I hope my Senate 
colleagues, and all supporters of human rights in Tibet, will contact 
Republican Leader Mitch McConnell and Foreign Relations Committee 
Chairman Jim Risch and ask them to pass this bipartisan legislation as 
soon as possible.
    Our hearing today will examine the current situation facing 
Tibetans, both inside China and globally; explore restrictions on 
linguistic and religious rights; and identify diplomatic and 
multilateral options to address restrictions on access and the process 
of religious succession.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                          Witness Biographies

    Zeekgyab Rinpoche, Abbot of Tashi Lhunpo Monastery

    The 5th Zeekgyab Rinpoche, Jetsun Tenzin Thupten Rabyal Pal Sangpo, 
was born in 1982 in a Tibetan refugee settlement in south India. At the 
age of two, he was recognized by the 14th Dalai Lama as the 
reincarnation of the 4th Zeekgyab Rinpoche--an eminent religious 
scholar and Buddhist practitioner. The Zeekgyab lineage stretches back 
over a century to eastern Tibet with close connections to Tashi Lhunpo 
Monastery and the Panchen Lamas. Rinpoche has undertaken over three 
decades of Buddhist education at key centers of learning in India 
including Tashi Lhunpo Monastery, Gaden Jangtse Monastery and Gyudmed 
Tantric University. Upon completing the full curriculum of Buddhist 
philosophic and dialectic studies, Rinpoche received many academic 
honors including his Geshe degree (equivalent to a Ph.D.) and his 
Kachen degree from Tashi Lhunpo Monastery. Rinpoche studied Mandarin in 
Taiwan and opened a Buddhist Study Center in Taipei where he continues 
to teach Buddhist philosophy. The 14th Dalai Lama appointed Rinpoche as 
Abbot of Tashi Lhunpo Monastery in late 2018.

    Matteo Mecacci, President, International Campaign for Tibet and 
former member of the Italian Parliament

    Matteo Mecacci was born in Florence, Italy, and studied 
international law at the University of Firenze (Florence). He is an 
expert in international relations, advocacy strategies and 
international human rights law. From 2008 to 2013, Matteo served in the 
Italian Parliament as a member of the Italian Chamber of Deputies (on 
the Foreign Affairs Committee) after being voted in as Deputy for the 
Democratic Party, during which time he served as Chairperson of the 
Italian Parliamentary Intergroup for Tibet. As an elected official of 
the OSCE Parliamentary Assembly, he participated in over 20 OSCE 
election observation missions and led two of them in 2012, in Serbia 
and Belarus. He also served as the Head of Mission of the OSCE/ODIHR 
Election Observation Mission for the 2013 Presidential election in 
Georgia. Earlier in his career, Matteo represented the international 
non-governmental organization No Peace Without Justice at the UN in New 
York working on human rights issues. Mr. Matteo Mecacci joined the 
International Campaign for Tibet as President in December 2013.

    Tenzin Dorjee, Senior Researcher and Strategist at Tibet Action 
Institute

    Tenzin Dorjee (Tendor) is a Tibetan activist, writer, and Senior 
Researcher and Strategist at Tibet Action Institute. He graduated from 
the Tibetan refugee school system in India and immigrated to the United 
States under the Tibetan Resettlement Project's family reunification 
program. He holds a bachelor's degree in international relations from 
Brown University and is currently a Ph.D. candidate in political 
science at Columbia University. He is the former director of Students 
for a Free Tibet and the author of The Tibetan Nonviolent Struggle: A 
Strategic and Historical Analysis. His work has been published in the 
Washington Post, the Oxford Research Encyclopedia, the CNN Blog, and 
the Tibetan Review.

    Sophie Richardson, China Director, Human Rights Watch

    Sophie Richardson is the China Director at Human Rights Watch. A 
graduate of the University of Virginia, the Hopkins-Nanjing Program, 
and Oberlin College, Dr. Richardson is the author of numerous articles 
on domestic Chinese political reform, democratization, and human rights 
in Cambodia, China, Indonesia, Hong Kong, the Philippines, and Vietnam. 
She has testified before the European Parliament and the U.S. Senate 
and House of Representatives. She has provided commentary to the BBC, 
CNN, the Far Eastern Economic Review, Foreign Policy, National Public 
Radio, the New York Times, the Wall Street Journal, and the Washington 
Post. Dr. Richardson is the author of ``China, Cambodia, and the Five 
Principles of Peaceful Coexistence'' (Columbia University Press, Dec. 
2009), an in-depth examination of China's foreign policy since 1954's 
Geneva Conference, including rare interviews with policy makers.

                                 [all]
</pre></body></html>
